<html>
<title> - REAUTHORIZATION OF THE DEPARTMENT OF TRANSPORTATION'S HAZARDOUS MATERIALS SAFETY PROGRAM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         REAUTHORIZATION OF THE
                     DEPARTMENT OF TRANSPORTATION'S
                   HAZARDOUS MATERIALS SAFETY PROGRAM

=======================================================================

                                (111-33)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

             RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 14, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
49-952                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)

?

     SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

CORRINE BROWN, Florida Chairwoman    BILL SHUSTER, Pennylvania
DINA TITUS, Nevada                   THOMAS E. PETRI, Wisconsin
HARRY TEAGUE, New Mexico             JERRY MORAN, Kansas
NICK J. RAHALL II, West Virginia     GARY G. MILLER, California
JERROLD NADLER, New York             HENRY E. BROWN, Jr., South 
ELIJAH E. CUMMINGS, Maryland         Carolina
GRACE F. NAPOLITANO, California      TIMOTHY V. JOHNSON, Illinois
JASON ALTMIRE, Pennsylvania          SAM GRAVES, Missouri
TIMOTHY J. WALZ, Minnesota           JIM GERLACH, Pennsylvania
MICHAEL A. ARCURI, New York          CHARLES W. DENT, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  LYNN A. WESTMORELND, Georgia
ALBIO SIRES, New Jersey              JEAN SCHMIDT, Ohio
MARK H. SCHAUER, Michigan            CANDICE S. MILLER, Michigan
BETSY MARKEY, Colorado               VERN BUCHANAN, Florida
MICHAEL E. McMAHON, New York         ROBERT E. LATTA, Ohio
THOMAS S. P. PERRIELLO, Virginia     BRETT GUTHRIE, Kentucky
PETER A. DeFAZIO, Oregon             AARON SCHOCK, Illinois
JERRY F. COSTELLO, Illinois          ANH ``JOSEPH'' CAO, Louisiana
BOB FILNER, California               PETE OLSON, Texas
EDDIE BERNICE JOHNSON, Texas
LEONARD L. BOSWELL, Iowa
RICK LARSEN, Washington
MICHAEL H. MICHAUD, Maine
DANIEL LIPINSKI, Illinois
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (ex officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Byrd, Lamont, Director of Safety and Health, International 
  Brotherhood of Teamsters.......................................    31
Donaldson, Ph.D., Gerald A., Senior Research Director, Advocates 
  for Highway and Auto Safety....................................    31
Douglass, Cynthia, Acting Deputy Administrator, Pipeline and 
  Hazardous Materials Safety Administration, accompanied by Ted 
  Willke, Associate Administrator, Office of Hazardous Materials 
  Transportation, U.S. Department of Transportation..............     6
Harman, Elizabeth, Director of Hazardous Materials, International 
  Association of Fire Fighters...................................    31
Hersman, Deborah A.P., Board Member, National Transportation 
  Safety Board...................................................     6
Hilton, Cynthia, Executive Vice President, Institute of Makers of 
  Explosives and Co-Facilitator, Interested Parties for Hazardous 
  Materials Transportation.......................................    31
Johnson, Chief Jeffrey D., First Vice President, International 
  Association of Fire Chiefs, and Chief, Tualatin Valley Fire and 
  Rescue, Beaverton, Oregon......................................    31
Petrancosta, Robert, Vice President-Safety, Con-Way Freight, on 
  behalf of The American Trucking Association, Inc...............    31
Rogers, Mark, Director, Dangerous Goods Program, Air Line Pilots 
  Association, International.....................................    31

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................    51
Cummings, Hon. Elijah E., of Maryland............................    57
Oberstar, Hon. James L., of Minnesota............................    64

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Byrd, Lamont.....................................................    70
Donaldson, Ph.D., Gerald A.......................................    83
Douglass, Cynthia, accompanied by Ted Willke.....................   104
Harman, Elizabeth................................................   113
Hersman, Deborah A.P.............................................   122
Hilton, Cynthia..................................................   138
Johnson, Chief Jeffrey D.........................................   147
Petrancosta, Robert..............................................   154
Rogers, Mark.....................................................   178

                       SUBMISSIONS FOR THE RECORD

Douglass, Cynthia, Acting Deputy Administrator, Pipeline and 
  Hazardous Materials Safety Administration, U.S. Department of 
  Transportation, responses to questions for the record..........   197
Hersman, Hon. Deborah A.P., Board Member, National Transportation 
  Safety Board, responses to questions for the record............   219
Hilton, Cynthia, Executive Vice President, Institute of Makers of 
  Explosives, responses to questions from Rep. Corrine Brown, of 
  Florida........................................................   223
Pentracosta, Robert, Vice President, Con-way Freight and American 
  Trucking Associations Hazardous Materials Policy Committee Past 
  Chairman, responses to questions from Rep. Corrine Brown, of 
  Florida........................................................   229

                        ADDITIONS TO THE RECORD

Cargo Airlines Association, Stephen A. Alterman, President, 
  written statement..............................................   235
Transportation Trades Department, AFL-CIO, Edward Wytkind, 
  President, letter and written statement........................   240

[GRAPHIC] [TIFF OMITTED] T9952.001

[GRAPHIC] [TIFF OMITTED] T9952.002

[GRAPHIC] [TIFF OMITTED] T9952.003

[GRAPHIC] [TIFF OMITTED] T9952.004

[GRAPHIC] [TIFF OMITTED] T9952.005

[GRAPHIC] [TIFF OMITTED] T9952.006

[GRAPHIC] [TIFF OMITTED] T9952.007

[GRAPHIC] [TIFF OMITTED] T9952.008

[GRAPHIC] [TIFF OMITTED] T9952.009

[GRAPHIC] [TIFF OMITTED] T9952.010

[GRAPHIC] [TIFF OMITTED] T9952.011

[GRAPHIC] [TIFF OMITTED] T9952.012

[GRAPHIC] [TIFF OMITTED] T9952.013



    REAUTHORIZATION OF THE DEPARTMENT OF TRANSPORTATION'S HAZARDOUS 
                        MATERIALS SAFETY PROGRAM

                              ----------                              


                         Thursday, May 14, 2009

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:50 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Corrine Brown 
[Chairman of the Subcommittee] Presiding.
    Ms. Brown of Florida. Will the Subcommittee on Railroads, 
Pipelines, and Hazardous Materials come to order.
    The Subcommittee is meeting today to hear testimony on the 
reauthorization of the Department of Transportation's Hazardous 
Materials Safety Program. The program was last reauthorized in 
SAFETEA-LU. It expired in September 2008. Today's hearing will 
review the implementation of the SAFETEA-LU amendments and 
issues that we may want to consider addressing in a 
reauthorization bill.
    SAFETEA-LU made a number of significant changes in the 
Hazardous Materials Safety Program. It provided DOT with 
enhanced inspection authority, although I am concerned that the 
Pipeline and Hazardous Materials Safety Administration has just 
35 inspectors to cover more than 300,000 entities. I am not 
sure how you can conduct adequate inspections and then ensure 
compliance with the hazardous materials regulation with only 35 
inspectors on board. That is something that we need to address 
in the reauthorization bill.
    SAFETEA-LU also strengthens training requirements and 
doubles funding for firefighters' training programs. The 
Hazardous Materials Emergency Preparedness grant program is of 
critical importance for training firefighters on how to respond 
to accidents and incidents involving the hazardous materials. 
Unfortunately, the current registration fees are not sufficient 
to fund the program beyond 2010, and that needs to be 
addressed. I would like to know what the DOT is doing about 
that.
    In addition, I think it is important that we consider the 
level of training that we provide to emergency responders. 
Firefighters on the ground have recommendations for a higher 
level of training for all personnel. I believe that is 
something we should address.
    We also need to look closely at the exemption that DOT has 
been issued from hazardous material regulations. According to 
the inspector general, the DOT has issued more than 4,500 
special permits and 125 approvals since they started the 
program. Concerns have been raised about the safety review that 
DOT conducted prior to approving those exemptions, whether 
there is appropriate coordination with the operating 
administrators, such as the FAA, before an application is 
approved and how well the administration is doing in enforcing 
the terms of the exemption. These are a few issues that I 
believe we need to address in the legislation.
    With that, I want to welcome today's panelists and thank 
them for joining us. I am looking forward to their testimony.
    Before I yield to Mr. Shuster, I ask unanimous consent that 
Members be given 14 days to revise and extend their remarks and 
to submit additional statements and materials by Members and 
witnesses.
    Without objection, so ordered.
    I yield to Mr. Shuster for his opening statement.
    Mr. Shuster. I thank the Chairwoman, and I want to welcome 
everybody here who is going to testify before the Committee. I 
appreciate your taking the time and putting the effort forward 
to be here on a topic that is extremely important to the 
Nation, the Hazardous Materials Transportation Safety Program.
    The safe and efficient transportation of hazardous 
materials is enormously important to the national economy and 
to our way of life. HAZMAT is broadly defined as essentially 
anything that could cause an unreasonable risk to human health 
or to the environment if it is mishandled.
    HAZMAT encompasses a surprisingly large percentage of goods 
that we consider essential to modern civilization. Twenty-eight 
percent, nearly a third, of all ton-miles of annual freight on 
our roads, rails, waterways, and air cargo is considered 
hazardous material. The United States has 1.2 million shipments 
daily of HAZMAT, totaling 3.1 billion tons a year. These 
shipments include everything from the fuel that heats our 
homes, that fills our gas tanks, to the elements of most 
commercial products, as well as other goods that are often 
unseen, but are just as important, like fertilizer for our 
crops, chemicals that keep our drinking water safe and medical 
materials to diagnose and to treat the sick. The importance of 
being able to safely and quickly deliver a wide range of 
potentially dangerous material cannot be understated.
    Fortunately, the private HAZMAT carriers who are ultimately 
responsible for moving these goods to market have an 
outstanding safety record. HAZMAT carriers are a diverse group 
of businesses, ranging from mom-and-pop operations, who own a 
single tank truck, up to multinational corporations handling 
thousands of shipments daily. These carriers have a remarkable 
safety record.
    My calculator actually had an error when we were trying to 
figure out what percentage of movements of hazardous goods 
result in an injury or in a fatality. It turns out to be 
0.00002 percent that result in an injury and 0.0000014 percent 
of movements that result in a fatality. So this is really a 
remarkable safety record, and I have said that three times. It 
is remarkable--I will say it a fourth time--because they do a 
great job.
    Our goal should always be to make things safer, but we have 
to carefully weigh the risks associated with the costs when 
taking legislative action. It is very important that we 
maintain the balance between commerce and regulation that has 
resulted in such a successful program.
    There are a few things I know that we can do better, such 
as ensuring that the Federal Government does a better job 
coordinating with the States to create more uniform standards 
for forms and permits, eliminating the duplication of 
background checks by the various governmental entities, as well 
as ensuring that enforcement is carried out consistently and 
fairly with as little disruption to the flow of commerce as 
possible.
    Of course, when you are talking about moving dangerous 
goods, there is going to be a risk, and there are going to be 
accidents. There is no way to completely eliminate that risk 
unless we just completely stop shipping these materials that 
are so vital to us. But what we need to do is to make careful 
and considerate choices about where we can best use our 
resources to minimize these risks while maintaining an 
effectively functioning system.
    If we regulate too much, we risk knotting the system in so 
much red tape that it will cease to be effective for its users 
and could damage the economy and our society. For example, if 
you create too many layers of permitting and inspection, you 
risk delaying the shipment of hazardous pharmaceuticals with 
short shelf lives to patients in need.
    So, as we begin to talk about the reauthorization of this 
successful program, we should take great care to ensure that we 
do not disrupt the balance between commerce and regulation that 
has resulted in a smoothly functioning system with an 
outstanding safety record.
    I look forward to hearing from all of you today.
    I yield back.
    Ms. Brown of Florida. Thank you.
    I ask unanimous consent that the gentleman from Illinois, 
Mr. Hare, be permitted to participate in today's hearing and 
sit and ask questions of the witnesses. Also, the gentlewoman 
from the District of Columbia, Ms. Norton.
    I yield to Mr. Hare.
    Mr. Hare. Thank you, Madam Chair, and I appreciate your 
holding this hearing. I am pleased to be here to discuss the 
reauthorization of the Transportation Department's Hazardous 
Materials Safety Program. While we have a number of key issues 
to address today, I would like to focus my remarks on one very 
important topic, the safety and health of hazardous material 
employees.
    Just 3 weeks ago, on April 28, we honored the 21st annual 
Workers Memorial Day, which is when people all over the world 
gather to remember workers who have been killed or injured on 
the job. April 28 also commemorated the creation of the 
Occupational Safety and Health Administration. Since 1970, OSHA 
has been the driving force in improving workplace safety and 
health across this great Nation.
    Under current law, OSHA and the DOT share jurisdiction over 
the transportation of hazardous materials. DOT has the 
authority to regulate in the transportation arena and OSHA has 
the responsibility for ensuring that hazardous material 
employees are adequately protected from injuries and death 
while on the job. This line of jurisdiction was affirmed in a 
2005 final rule issued by the Department of Transportation.
    It has come to my attention, however, that the explosive 
trucking and fertilizer industries have, once again, proposed 
to eliminate that shared jurisdiction, thereby eliminating 
OSHA's authority over employees engaged in loading, unloading 
and handling hazardous materials, with the exception of 
training, under the guise that there is overlapping and 
confusing regulation of the industry.
    The Committee has spoken with both DOT and OSHA on this 
topic, and there is no such confusion. DOT has regulations on 
the description of hazardous materials, safety procedures for 
loading and unloading those materials, packaging and marketing. 
OSHA has regulations for hazard communication at fixed 
facilities, such as noise and air quality control, walking and 
working surfaces, emergency preparedness, personal protective 
equipment, and fire protection. These regulations are not new. 
They have existed for decades, and they are critical to 
maintain the highest level of safety for employees handling 
hazardous materials.
    Additionally, OSHA does an excellent job of protecting 
workers from hazardous conditions that are prevalent in the 
transportation sector that are nonchemical, such as locking and 
blocking wheels to prevent accidental or unintended movement of 
mobile equipment and cargo while workers are loading, 
unloading, hitching, unhitching, or performing services or 
maintenance. Unfortunately, DOT does not pay much attention to 
these more mundane hazards, further highlighting OSHA's 
importance to workers in the industry.
    The industry's proposals to end OSHA's involvement in the 
transportation sector is nothing more than a blatant attempt to 
circumvent compliance with these regulations and to avoid 
responsibility under the law. Weakening the authority of OSHA 
would result in real life-or-death consequences for American 
workers in such a high-risk industry.
    As the former president of the UNITE HERE Local 617, 
representing apparel and textile workers, I have seen firsthand 
how employers address hazards in the workplace or, more 
importantly, how they choose not to when other business 
priorities, such as profits, would be impacted.
    It is a fact that 16 workers die every day in our country 
from work-related injuries. In 2005 alone, over 5,700 workers 
were killed at work, and the situation is only getting worse. 
The Bureau of Labor Statistics found that the number of 
workplace deaths jumped by more than 2 percent between 2005 and 
2006.
    I am committed to maintaining a safe and healthy workplace 
for all American workers, including those in the hazardous 
material industry. I will work with Chairman Oberstar and with 
Chairwoman Brown to defeat this ill-conceived proposal.
    With that said, I note that the National Transportation 
Safety Board's written statements indicate concerns that the 
Department of Transportation does not have enough authority to 
regulate loading and unloading questions. I have no problem 
with addressing that concern. In fact, I believe that the 
Department of Transportation intends to address these concerns 
in an upcoming rulemaking, but that additional authority should 
not be at the expense of OSHA. I do not believe, from 
conversations that the Committee has had with the NTSB, that 
this is what the NTSB is proposing.
    I thank you, Madam Chairman, and I look forward to hearing 
from the witnesses.
    Ms. Brown of Florida. Ms. Norton.
    Ms. Norton. Thank you, Madam Chair, and thank you for 
allowing me to sit. I am a Member of the Full Committee. I have 
not been able to be on this Committee this year, but I do want 
to sit in often on this Committee because much of what you do 
is of great importance to my district as well as to the 
country.
    The hazardous substances area presents immense challenges 
to a market economy. We must transport hazardous substances and 
even hazardous waste, such as nuclear waste, from one place to 
another, and that means by various modes of transportation. The 
last session--indeed, in 2007, I believe--was the first time we 
had passed a rail security bill, and there were certain 
sections that related to freight security. This matter was of 
huge risk right here in the Nation's Capital. We allowed trains 
carrying hazardous substances to pass within 2 miles of the 
Capitol while the Department of Homeland Security and other 
agencies not only had nothing to say about them, but refused, 
even in the face of a court suit by the local jurisdiction, to 
say what, if anything, it was doing to either reroute trains or 
to otherwise account for the fact that toxic substance freights 
were passing so close to the Capitol and to other parts of the 
Federal presence.
    The silence was what seemed to be the most indefensible. At 
least in the prior administration we had taken to saying 
"national security" or "security" as if to say "shut up," as if 
the public were not entitled to know. That only made residents 
of this region more fearful.
    We have improved the matter, but we still are not 
transparent on these substances, where they go. It is, I 
believe, one of the great neglected areas after 9/11.
    In Spring Valley, a neighborhood in the District of 
Columbia, hazardous materials from World War I were discovered. 
The Corps of Engineers proposes that it has now cleaned it up. 
It so proposed about 10 years ago, and then they found more of 
these weapons, chemical weapons, that have been buried in the 
Nation's Capital at a time when there were no homes there. What 
we discovered was the only FUDS area, the only area that had 
been used to dump chemical weapons, has become a residential 
neighborhood.
    We will be having hearings in another Committee shortly, 
Madam Chair, as the Corps of Engineers proposes, once again, to 
leave without being willing to guarantee or to even say that 
all of these chemical weapons have, in fact, been cleared away. 
I mean, that is the primitive level on which we are still 
dealing with hazardous substances which are found in very many 
places and throughout our society.
    So I particularly was concerned, even after we have had 
train wrecks such as the one in South Carolina perhaps 3 or 4 
years ago, where hazardous substances were en route. There was 
a wreck; seven people were killed, and there it stood.
    This area needs work from the ground up. It is one of the 
great neglected post-9/11 areas.
    Your work is seminal in this regard, Madam Chair, and I 
thank you for your initiative here today.
    Ms. Brown of Florida. Thank you.
    Now I am pleased to introduce our first panel of witnesses. 
We have Ms. Cynthia Douglass, who is Acting Deputy 
Administrator for the Pipelines and Hazardous Materials Safety 
Administration of the U.S. Department of Transportation, and we 
have Ms. Deborah Hersman, who is a longtime member of the 
National Transportation Safety Board.
    Welcome. We are very pleased to have you with us here this 
morning.
    Ms. Douglass, we will start with you. And I want to remind 
the witnesses that, under Committee rules, all statements must 
be limited to 5 minutes, but your entire statements will appear 
in the record. We are pleased to have you all with us.

  TESTIMONY OF CYNTHIA DOUGLASS, ACTING DEPUTY ADMINISTRATOR, 
    PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION, 
 ACCOMPANIED BY TED WILLKE, ASSOCIATE ADMINISTRATOR, OFFICE OF 
    HAZARDOUS MATERIALS TRANSPORTATION, U.S. DEPARTMENT OF 
    TRANSPORTATION; AND DEBORAH A.P. HERSMAN, BOARD MEMBER, 
              NATIONAL TRANSPORTATION SAFETY BOARD

    Ms. Brown of Florida. You may begin, Ms. Douglass.
    Ms. Douglass. Chairwoman Brown, Ranking Member Shuster and 
distinguished Members of the Committee, I am Cindy Douglass, 
Acting Deputy Administrator of the Pipeline and Hazardous 
Materials Safety Administration. Sitting with me is Ted Willke, 
the Associate Administrator for the Office of Hazardous 
Materials Transportation. I appreciate the opportunity to 
testify on PHMSA's hazardous materials program.
    I believe it is one of the best agencies in government. In 
large part, this is due to the strong leadership of your 
Committee and your staff. We are grateful.
    Our staff is working every day to enhance the safe and 
efficient transportation of hazardous materials. We regulate 
the transport of about 1 million daily movements of hazardous 
materials. There are approximately 450 serious incidents a 
year, resulting in about 15 deaths.
    Under the Secretary's delegations of authority, PHMSA has 
primary responsibility for hazardous materials transportation. 
We coordinate regulations, enforcement, research, and outreach 
with our sister agencies in aviation, rail, motor carrier, and 
with the Coast Guard for water and ports. This partnership has 
worked very well for over 30 years to assure the safe, 
environmentally sensitive, efficient, and uniform 
transportation of hazardous materials.
    Our State partners are also critical to our program. PHMSA, 
the Motor Carrier Safety Administration and the State highway 
patrol cooperate to enforce the regulations on our highways. 
The highway patrol and firefighters are the first responders to 
a HAZMAT incident. PHMSA provides critical support to these 
groups to assure they are prepared to provide an effective 
first response to an accident, not only to protect the public, 
but to protect themselves.
    Another critical component of our program is PHMSA's 
leadership internationally to align domestic transportation 
requirements with international transport standards. We have 
chaired the United Nations Committee of Experts on the 
transportation of dangerous goods for 26 of the last 30 years, 
and represent the Department on the Hazardous Materials 
Subcommittees of the International Civil Aviation Organization 
and the International Maritime Organization.
    The Department's Hazardous Materials Transportation Safety 
Program enhances safety by developing strategies to address the 
greatest risks. The risks include fires on board commercial 
aircraft, releases of materials that are poisonous by 
inhalation, rollovers of tank trucks carrying flammable 
liquids, such as gasoline, bulk loading and unloading 
operations and undeclared shipments of hazardous materials.
    I would like to highlight some of the activities of the 
past year.
    PHMSA and FAA have had numerous discussions on how best to 
regulate the risk of fire aboard aircraft, specifically due to 
lithium batteries. Current regulations essentially ban lithium 
batteries from passenger aircraft. Based on recommendations 
from the NTSB and our own analysis of incident data, FAA and 
PHMSA have agreed to initiate rulemaking to further enhance the 
safety of lithium battery shipments on cargo aircraft. We also 
sponsor a Web page providing guidance on how to travel safely 
with batteries and battery-powered devices. To date, the Safe 
Travel Web site has recorded several million hits.
    PHMSA and FRA issued two rules addressing safety risk posed 
by PIH, Poisonous by Inhalation, hazardous materials that are 
transported in large quantities by rail. One requires rail 
carriers to assess routing alternatives and to use the safest, 
most secure routes. The second establishes more rigorous design 
standards for tank cars to enhance their ability to survive 
accidents without releasing their hazardous material cargoes. 
PHMSA and the Motor Carrier Safety Administration have 
initiated rulemaking to examine safety issues associated with 
the bulk loading and unloading operations.
    We are increasing our enforcement staff and are using new 
technology to implement a risk-based approach to enhance 
compliance and to reduce incidents. Last fall, we launched the 
HAZMAT Intelligence Portal. This data warehouse tool inputs 
hazardous materials information available from 27 different 
government databases into one easy-to-use portal, and it also 
helps us focus our inspections on the high-risk companies.
    PHMSA also distributes about $28 million a year in 
Hazardous Materials Emergency Preparedness grants for the 
emergency response community and labor organizations. It is the 
only federally funded program available solely for the training 
of responders in hazardous materials and community preparedness 
planning.
    Last year, we distributed our eighth edition of the 
Emergency Response Guidebook. You should have a copy in front 
of you. It assists emergency responders in responding to 
hazardous materials transportation incidents. Since 1980, we 
have distributed over 11 million ERGs free to first responders. 
The ERG is now on the Internet and is available electronically 
on smartphones and on personal digital assistants.
    We partnered with the International Association of Fire 
Chiefs to establish the National Hazardous Materials Fusion 
Center. This center provides a Web-based system for hazardous 
materials teams, first responders, Federal, State and local 
agencies and the private sector to share experiences in order 
to learn from each other how best to address new and emerging 
HAZMAT challenges.
    PHMSA has taken advantage of many new technologies to 
enhance the effectiveness and efficiency of our program. 
Recently, I visited the Port of New York-New Jersey and then 
the Port of Jacksonville for a multiagency strike force 
operation, and witnessed new technologies being used to search 
cargo shipment containers and speed truck driver 
identification. These new paperless technologies enable the 
movement of up to 60,000 trucks per day through intermodal port 
facilities while greatly enhancing security, safety and 
efficiency.
    Finally, in building for the future, I want to highlight 
several initiatives that we have under way.
    We will be hiring ten new inspectors and five staff for our 
grant program, our data analysis and for our special permit 
offices in fiscal year 2010. We are establishing a new 
enforcement training initiative. This will help ensure the 
uniform application of the regulations, resulting in a safer 
transportation network. PHMSA is expanding its emergency 
response strategy to make training available to more of the 
800,000 volunteer firefighters across the country.
    We have a 5-year plan to promote international 
harmonization of HAZMAT standards to further enhance the safety 
of lithium battery shipments, marine pollutants, explosives 
transported by air, and intermediate bulk containers.
    In closing, I commend you and the Members of this Committee 
for your leadership and support. Secretary LaHood and all of us 
at DOT are looking forward to working with you to provide 
America with a safe, secure, environmentally sensitive, 
efficient, and uniform transportation system.
    Thank you for this opportunity to testify. I will be happy 
to take your questions.
    Ms. Brown of Florida. Ms. Hersman.
    Ms. Hersman. Good afternoon, Chairwoman Brown, Ranking 
Member Shuster, Chairman Oberstar, and Members of the 
Committee. Thank you for the opportunity to appear before you 
today on behalf of the National Transportation Safety Board.
    I will talk to you about three issues of concern for the 
NTSB--the air transportation of lithium batteries, the hazards 
of wet lines on highway cargo tanks, and the loading and 
unloading of hazardous materials from railroad tank cars and 
from highway cargo tanks.
    First, air transportation of lithium batteries. Lithium 
batteries are commonly found in watches, cameras, cell phones, 
and laptop computers. As the popularity of electronic devices 
has increased, so has the number of lithium battery fires in 
transportation.
    In 1999, the NTSB investigated a fire that destroyed two 
cargo pallets holding boxes of primary batteries at a cargo 
facility at LAX. The pallets had arrived on a passenger 
airliner from Japan. Neither pallet was marked "hazardous." One 
of the pallets fell off of a forklift and overturned. About 3 
minutes later, it caught on fire and then caught the other 
pallet on fire.
    In 2006, a cargo aircraft had an in-flight fire, and made 
an emergency landing in Philadelphia. The aircraft and most of 
the cargo were destroyed by fire after landing. Although the 
cause of the fire could not be determined, the NTSB used this 
investigation to closely look at the safety of transporting 
lithium batteries on commercial aircraft. Testing and incident 
data indicate that lithium batteries pose a fire hazard, and 
the Safety Board believes that an in-depth analysis of this 
transportation hazard is needed.
    The NTSB recommended that PHMSA require the reporting of 
all incidents involving lithium batteries as well as the 
retention and analysis of the failed batteries so that we could 
research the modes of failure. The Safety Board has recommended 
that PHMSA eliminate regulatory provisions that permit limited 
quantities of these batteries to be transported without 
labeling, marking or packaging them as hazardous materials. The 
NTSB has also recommended that PHMSA and the FAA address the 
lack of public awareness regarding the safety of lithium 
batteries.
    Now, on to wet lines. Gasoline and diesel fuel can be 
transported in external pipes, or wet lines, situated below 
cargo tanks on tanker trucks. Wet lines are designed to break 
away at the connection point to the tank as shown by the valve 
in this photo. This is to prevent the loss of the entire 
contents of the tank. However, if a wet line is full of 
gasoline or diesel when the breakaway occurs, it can release as 
much as 50 gallons of product, presenting a significant fire 
hazard.
    In 1997, a tanker truck semi-trailer, transporting 
gasoline, was struck by a car in Yonkers, New York. The car hit 
the tank's wet lines, releasing the gasoline in them. The 
ensuing fire destroyed both vehicles, a highway overpass, and 
the driver of the car was killed.
    In 1998, the NTSB investigated a similar accident in 
Wilmington, Delaware, in which a tanker truck transporting 
gasoline struck a car that was parked on the shoulder of a 
bridge. Three of the four wet lines were fractured, releasing 
approximately 12 gallons of gasoline. A fire ensued, which 
destroyed the car, and the driver was killed.
    To demonstrate the vulnerability of wet lines, the NTSB 
placed 12 passenger vehicles of varying sizes near the wet 
lines of a typical cargo tank. It was found that each vehicle 
would have struck the wet lines of the truck had they moved 
forward. The NTSB believes that most vehicles currently in use 
are capable of striking the wet lines of cargo tanks.
    PHMSA has developed a program of best practices for fueling 
operations, maintenance procedures, and other safeguards. 
However, these actions do not address the need to eliminate wet 
lines. Some companies have voluntarily installed purging 
equipment on their fleets, and this would eliminate the 
vulnerability of wet lines on their tankers.
    Lastly, the loading and unloading of hazardous materials. 
In 2002, a 24,000-gallon railroad tank car of hazardous waste 
catastrophically ruptured at a chemical facility in Freeport, 
Texas, while the car was being steam-heated. Twenty-eight 
people were injured in this accident. The NTSB determined that 
the tank car was overpressurized by excessive heating, which 
created a runaway chemical reaction. In this and other 
accidents, the NTSB has found the inadequate Federal safety 
oversight of the loading and unloading of hazardous materials 
from highway cargo tanks and railroad tank cars.
    In January 2008, PHMSA published proposed recommended 
practices for loading and unloading bulk liquid containers. 
Although those recommended practices are comprehensive, they 
are not enforceable. The NTSB believes that PHMSA should codify 
in regulations the recommended practices for more effective 
oversight for these operations.
    My written testimony has been submitted for the record, and 
it includes information on other issues of interest to the 
NTSB. Again, thank you for the opportunity to identify our top 
safety concerns regarding HAZMAT. I will be happy to answer 
your questions.
    Ms. Brown of Florida. Mr. Oberstar.
    Mr. Oberstar. I want to thank the panel for their 
presentations and for participating in this very important 
hearing. Safety is the essential element of transportation, and 
it has been the constant vigilance of this Committee over all 
of its years that I have served here, and that is a long time.
    There were more than 3.3 billion lithium cells and 
batteries transported worldwide last year. That is nearly a 
tripling of the number just 3 years earlier. You have already 
described, Ms. Hersman, in your presentation--and so has Ms. 
Douglass--the complexity engaged in lithium batteries. Out of 
this rise two issues of concern to me: the safety of moving 
these batteries on the ground and in the air and the practice 
of transporting flammable material, as was described in Ms. 
Hersman's presentation from the National Transportation Safety 
Board.
    Ms. Hersman, are there some lessons learned that jump to 
mind in this experience? Can you think of a couple of 
experiences that come to mind quickly?
    Ms. Hersman. Sure.
    With respect to lithium batteries, I think one of the 
things that we identify----
    Mr. Oberstar. No, not lithium. I am talking about lessons 
learned from fire on board.
    Ms. Hersman. Absolutely. The challenge for aviation is they 
do not have the ability to pull over in the clouds.
    Mr. Oberstar. In the air, there is no curb.
    Ms. Hersman. No. So the challenges are----
    Mr. Oberstar. I am thinking of two incidents.
    Ms. Hersman. You are thinking about two accidents where 
there was fire?
    Mr. Oberstar. Two accidents.
    Ms. Hersman. Absolutely. Swissair is one where we saw a 
fire quickly, and we have seen a number of cargo accidents that 
involve fire.
    Mr. Oberstar. ValuJet----
    Ms. Hersman. Absolutely.
    Mr. Oberstar. --with the oxygen tanks.
    Ms. Hersman. Yes.
    Mr. Oberstar. Okay. In Swissair, it was the arcing of 
bundles of wires in the electrical system, buried in the 
insulation on board that 767. Nobody thought insulation would 
catch on fire, but it did, and 110 people died. There was no 
safety procedure to safeguard against the rubbing away of the 
coating, of the simple Mylar coating of those electrical 
conduit wires, but they chafed, they rubbed. It wore away, and 
a 1,000-degree arc ignited the insulation. It is not supposed 
to burn at that. We learned a lesson from that and applied it.
    We learned a lesson with ValuJet. There was no labeling, as 
the NTSB reported. There was no labeling of those oxygen 
bottles. They were put on board that aircraft. They were not 
properly secured. They were not separated from one another. 
They banged one another and then were eventually stored inside 
a rubber tire that provided more fuel for the fire, and it was 
a disastrous accident that killed people in a Florida swamp.
    We are here faced with another situation of similar 
magnitude. What troubles me about the lead-up to this is, over 
a period of 2 or 3 years, PHMSA and the FAA were going back and 
forth and were not doing anything. They were not taking action 
on a matter that is of the highest safety importance.
    Now tell me what you have accomplished. What have you 
agreed upon to do with the FAA? You are in the same Department 
of Transportation.
    Ms. Douglass. Yes. We have been working very closely on 
this issue, and I will say that over the last--I do not know--I 
suppose, couple of years, they have been working very hard to 
try to come to an agreement on exactly how this should be 
regulated. However----
    Mr. Oberstar. They are not working hard enough.
    Tell me what you have done. What have you accomplished?
    Ms. Douglass. Yes. Now we have come to--let me look at 
this. We have come to an agreement. The FAA and PHMSA have come 
to an agreement on issuing a notice of proposed rulemaking on 
lithium batteries. Among other things, one of the things we 
will do is require marking and shipping papers, class 9 
marking, for lithium batteries. That will tell the pilot what 
is on the aircraft in terms of lithium batteries.
    In addition to that, there are many different----
    Mr. Oberstar. Can you agree upon how they shall be carried, 
on how they will be stored, on how they will be protected 
against overheating, against rupture, against explosion 
internally?
    Ms. Douglass. Yes.
    Mr. Oberstar. What are those practices?
    Ms. Douglass. There are different kinds of packaging.
    I guess I would like for Ted, who is more of an expert on 
that----
    Mr. Oberstar. We are here to find the answers. I do not 
want the how-to's and the whatevers. I want to know what you 
have done and what you are going to do and what you are going 
to require in the future.
    Ms. Douglass. Well, we have reached an agreement, and I 
have a paper here that we have gone over with the FAA that 
tells us exactly what we are going to do.
    Mr. Oberstar. You should have that at your fingertips. Tell 
me what it is.
    Ms. Douglass. Okay. We are going to require manufacturers 
to provide the results of the satisfactory completion of U.N. 
Design-type tests for each lithium battery and cell type. We 
are going to require current shipping descriptions for lithium 
batteries, for lithium batteries packed with equipment and for 
lithium batteries contained in equipment to specify metal 
batteries, including lithium alloy batteries, as appropriate, 
adopt shipping descriptions for lithium-ion batteries, 
including lithium-ion polymer batteries, lithium-ion batteries 
packed with equipment, including lithium-ion polymer batteries, 
lithium-ion batteries contained in equipment, and including 
lithium-ion polymer batteries.
    Mr. Oberstar. Do those regulations distinguish between the 
different characteristics of those types of lithium batteries 
because they have different reactive characteristics?
    Ms. Douglass. Yes, I believe they do.
    Mr. Oberstar. Okay.
    Ms. Douglass. I can go through this, but it is very 
detailed, and it is actually very long. It is very complex, and 
I feel----
    Mr. Oberstar. You have practices for safe ground handling, 
for the safe handling aboard an aircraft and for the safe 
handling aboard truck and rail; is that right?
    Ms. Douglass. These are applying in the air situation.
    Mr. Oberstar. What do you have for ground handling as in 
the situation that Ms. Hersman described, in the handling of a 
pallet? There was an accident and there was a fire.
    Ms. Douglass. Well, I am not aware of what we are doing on 
the ground on this sort of a package. I know that this is not 
intended right now to apply to ground transportation.
    Mr. Oberstar. But the air transport does not end when the 
aircraft is on the ground. You need to deal with that as well.
    Ms. Douglass. There are regulations, but not as extensive 
as this because, like you said, the risk in the air is much 
different. The high consequence of the risk is the reason that 
we are considering doing all of these things.
    Mr. Oberstar. I am very familiar with the risk in the air. 
I have spent 25 years working on it. I want to know, are you 
also publishing safe ground handling practices?
    Ms. Hersman, don't you think they should do that?
    Ms. Hersman. Chairman Oberstar, I think I have seen a draft 
of this agreement, and I think many of the issues that the 
Safety Board identified are addressed in the agreement.
    With respect to the labeling and the marking and the 
appropriate packaging, I think that would be addressed; and 
that would certainly apply if they were on the ground, being 
loaded or unloaded. If they are going to be shipped in air 
transport, those things would apply. So I think that does 
address the issue that you are concerned about.
    Mr. Oberstar. Shouldn't ground handlers have particular 
training and guidance and direction and management in the 
handling of such cargo?
    Ms. Hersman. Absolutely.
    The important part is that it is marked and labeled 
appropriately so they can identify it as HAZMAT and know that 
they need to handle it properly, so that when it falls off the 
forklift, they do not immediately reright it and just ignore 
it. They recognize that there is the potential for overheating 
or for damage to those batteries. It should be marked and 
labeled like any other HAZMAT is labeled and not exempted from 
those regulations.
    The draft agreement addresses a number of issues that the 
Safety Board has been concerned about. For example, making sure 
that on cargo flights, those hazardous materials are in crew-
accessible locations, so that if there is an event, they can 
locate them easily-- that they are not buried in the 14th row 
of that cargo aircraft.
    Also, there is the testing and retention of those 
batteries. If there is an event or a fire, we want to make sure 
that those incidents are reported and that those batteries are 
retained so that the failure modes can be addressed.
    The other side of this is not just on the cargo side, but 
it is also on the passenger side. You know, we all have more 
electronic devices now. It is educating passengers to make sure 
they understand that those batteries can become dangerous.
    We have identified incidents where flight attendants have 
taken a smoking laptop, and fortunately, they were on the 
ground, because they opened the door and tossed it out the door 
as it was on fire. We certainly do not want that to happen in 
the air, so we need to make sure passengers understand the 
dangers of batteries, of transporting loose batteries and 
making sure those contacts are protected.
    Mr. Oberstar. That is extremely important, and the progress 
made so far is important. Unfortunately, it has taken this 
long.
    In your quick reading of the PHMSA proposal, is there 
anything missing?
    Ms. Hersman. We want to make sure that there is a public 
education component and that there is an incident reporting 
component; those may be things that get incorporated as the 
draft moves forward. The Safety Board has been interested in 
thos areas.
    Mr. Oberstar. Let Mr. Chipkevich weigh in on that. He is a 
very thorough investigator.
    Mr. Chipkevich. Thank you, sir. One issue in there was the 
possibility of a requirement to use the U.N. Standards. I think 
harmonization with the U.N. requirements is important for 
international shipments, but I think establishing our own 
standards and then referencing and using the U.N. standards is 
perhaps more appropriate than enacting legislation, because if 
we cannot get the U.N. to be as stringent as we believe is 
necessary, then additional regulatory action could be taken by 
the FAA and RSPA.
    Mr. Oberstar. I appreciate that answer. That is where I was 
leading to.
    Madam Chair, I will conclude here because we have got 
votes, and other Members have questions they may want to ask.
    We ought not to be the follower. We ought to be the leader. 
The world looks to the U.S. FAA as the gold standard for safety 
and to our NTSB as that impartial standard setter without 
regard to benefit-cost analysis.
    You set the standard for what is the most important thing 
we need to do, and then the regulatory agencies carry it out. 
So we are counting on you for raising the bar and for setting 
the standard.
    Ms. Douglass. Chairman Oberstar, may I just say that I 
believe this is a new day in PHMSA in the way we look at these 
activities. It is a new administration. I have only had a few 
months there to review some of these things, but I have found 
our people to be very interested and very supportive in moving 
forward in this regard, and they have been very, I think, 
cooperative, and the intent is to move forward.
    I am sorry. I misunderstood when you said ground 
transportation. I thought you meant this was applying across 
the board to all transportation.
    Mr. Oberstar. We will come to that next.
    Ms. Douglass. Okay.
    Mr. Oberstar. Yes, PHMSA has come a long way since you 
first testified before this Committee.
    Ms. Brown of Florida. We have three votes, and we are going 
to stand in informal recess while we go and take those votes; 
and we will come back to continue the questioning.
    We officially will stand in recess.
    [Recess.]
    Ms. Brown of Florida. We will officially come to order, and 
I will go to Mr. Shuster.
    Mr. Shuster. Thank you.
    Ms. Hersman, on the topic of wet lines, do you have any 
facts and figures on the number of fatalities and injuries? Has 
it been something that has been on the increase? Has it been 
static? Has there been a decrease over the last 3 years or 
several years?
    As to whatever you have, can you give me a little 
information on that.
    Ms. Hersman. I think that question could probably be best 
answered by PHMSA. We do not retain any data regarding 
accidents. We do investigate single-accident events, but we do 
not retain the national data.
    Mr. Shuster. Would Ms. Douglass have that information?
    Ms. Douglass. Yes, I have some information on that.
    Basically, over the last number of years--I believe it is 
about 7 years--there have really not been any deaths or 
injuries due to wet lines. There have been incidents where the 
wet lines have been sheared off. There have been incidents 
prior to the 7 years where there were deaths and injuries, not 
a large number of deaths and injuries, but there have been 
problems.
    I think Debbie described them in her testimony.
    Mr. Shuster. Were there changes several years ago that 
stopped some of the fatalities, or is it just that you have not 
had an incident or had anything significant happen where there 
has not been a fatality or a significant amount of injuries in 
the last several years?
    Ms. Douglass. Ted can correct me if I am wrong, but I do 
not know of anything that has changed that would have caused 
there to be fewer problems with wet lines.
    Mr. Shuster. Ms. Hersman, you said that the NTSB does not 
keep any statistics. When you are talking about injuries and 
fatalities, isn't that something that you would look at in your 
analysis to see--I mean, you look at a situation, and I saw the 
pictures; but if it is very small or, statistically, if it is 
not significant, doesn't that go into your analysis on making 
recommendations on changing the system or on how to correct a 
problem?
    Doesn't that need to be addressed?
    Ms. Hersman. I think that is a great question, and I think 
that is one of the challenges that the NTSB has, because we are 
charged by Congress with investigating all aviation accidents. 
We actually do have a good database on civil aviation accidents 
because that is part of our mandate. But with respect to the 
other modes of transportation, we do not have to investigate 
every single accident, and so we do not collect the data. That 
is really a function of DOT.
    But you are correct in trying to figure out what the 
consequences of these accidents are and how prevalent they are.
    One thing that we did note is that there is a lot of 
underreporting with respect to these events because there is 
not necessarily a box for the law enforcement official to check 
when filing a report of an accident-- a box to check that says 
it was a wet lines accident. We do know that when PHMSA looked 
at the data between 1990 and 2001, they did find, over a 
hundred events and seven fatalities within that time period.
    So we were, frankly, a little surprised, since there really 
have not been any changes enacted, that since 2001 there were 
not events that could be reported.
    Mr. Shuster. Right. I mean, the underreporting of 
fatalities and injuries, that is generally always reported in 
an accident, so it has got to be out there somewhere.
    Ms. Hersman. Sure. Fatalities are actually all reported, 
but injuries are not. That is actually a sampling system, but 
that is a DOT function as well.
    With respect to fatalities, we may not know exactly what 
the cause of the accident is. For example, in NTSB accidents, 
we are very thorough, we look at fatigue and we look at a lot 
of other issues; but on the police reports that get reported, 
they might not check all of the boxes because they just do not 
exist, and their investigations may be very cursory.
    Mr. Shuster. I guess, not that it came directly from you, 
the NTSB has recommended that these trucks be retrofitted with 
a purge system on it.
    My question is, have you looked as to what kind of--because 
I understand, if you look at retrofitting these trucks, there 
is some cause to be concerned about the hazards to the people 
who are retrofitting them because there is ignition from 
residual vapor and things like that.
    So, when the NTSB is making a recommendation to correct a 
problem, are they then looking at whether their correction 
would cause hazardous problems to people?
    Ms. Hersman. Congressman Shuster, I think we are always 
concerned about unintended consequences, but our recommendation 
is not actually to retrofit with the purging system. Our 
recommendation is to prohibit the carrying of hazardous 
materials in the external piping of cargo tanks, such as 
loading lines that could be vulnerable to failure in an 
accident.
    It is really up to the regulatory body to determine how 
they want to do that, but I am not aware of any events, 
fatalities, involved in the retrofit.
    Mr. Shuster. Well, that is my understanding, which is that 
your recommendation to not carry fluids in those pipes will 
force them to put a system on the tanker to be able to purge 
those lines; so, once again, with the unintended consequences 
of saying, "We need to get that fuel out of the lines," now, 
all of a sudden, we have to do something else that may cause a 
hazardous situation.
    Ms. Hersman. We are not aware that it would cause a 
hazardous situation or any injuries or fatalities involved in 
the retrofit.
    We did visit with one company, Sunoco, that has actually 
either installed or has retrofitted this purging system on 100 
percent of their fleet. Sunoco told us that it was a business 
decision for them, that if they had one incident involving the 
rupturing of the wet lines, it would pay for the retrofitting 
for the entire fleet.
    Mr. Shuster. Right.
    If I could, I will just ask one more question on top of 
this one.
    When you have a disagreement, again, between the NTSB and 
DOT, do you revisit your recommendations? Do you toe the line? 
I mean, if DOT is coming up with a different point of view, as 
it appears in this case they have, do you revisit that and 
change your recommendation or try to take other things into 
consideration from their viewpoint?
    Ms. Hersman. Absolutely. We made our recommendation back in 
1998, and it was actually following some regulatory activity 
that RSPA--at the time the predecessor of PHMSA--had put on.
    I think, if they were able to come to us and to provide an 
acceptable, alternate solution to our recommendation, we would 
certainly embrace that; but at this point in time, they have 
not fulfilled either the letter or the intent of the 
recommendation to prohibit hazardous materials in those lines.
    We know that the likelihood of an incident is very low, but 
if it does happen, it is catastrophic.
    Mr. Shuster. Okay.
    Ms. Douglass?
    Ms. Douglass. Could I comment on that?
    We have been looking at this situation, and we are very 
well aware that Sunoco has retrofitted and has bought a 
partially new fleet and retrofitted, and we have learned the 
cost of that. Sunoco does believe it is cost beneficial to that 
company to do that, so we have decided to take a look at that 
whole issue again and see if there are different ways.
    For example, could the line be purged? Maybe you would not 
have to retrofit, but maybe you could purge the line at the 
loading facility. You could let it drain out and--I do not 
know; there may be different things that we could do along 
those lines.
    On the one hand, when there are deaths or injuries, it is 
hard to do the cost-benefit on that. On the other hand, we are 
hearing some exciting, you know, stories from Sunoco on their 
ability to--and the costs do seem to be coming down on some of 
these devices. So we are looking at that.
    We work back and forth with the NTSB on these issues, and 
we try to understand what they are looking at, and we take that 
very seriously. I think that the problem comes in oftentimes 
because we do have to do a cost-benefit analysis on a 
regulation, but I think this Agency is willing to move forward 
on some of these things and is looking at some of these options 
that we might have.
    Mr. Shuster. Okay. Thank you very much.
    Thank you, Madam Chair.
    Ms. Brown of Florida. Thank you.
    Mr. Nadler.
    Mr. Nadler. Thank you.
    Ms. Douglass, according to Committee staff, until 
yesterday, PHMSA had repeatedly told staff that there were only 
two wet-lines incidents from 2001 to the present; is that 
correct?
    Ms. Douglass. I believe it may be correct.
    Mr. Nadler. It is.
    Yet we now understand that, between 1990 and 2001, there 
were 148 incidents involving wet lines.
    Now, when the Committee staff had its detailee, who was a 
professional HAZMAT inspector for DOT, comb through PHMSA's 
database, they found that nearly 70 wet-lines incidents were 
discovered. This only applies to gasoline incidents. Staffers 
have since found 43 more involving other hazardous materials, 
and I believe that PHMSA has confirmed these numbers.
    Given this, why was it that PHMSA could only tell us about 
two of them until yesterday?
    Ms. Douglass. Well, I asked that question myself, but my 
understanding is that this comes from the hazardous materials, 
HMIS, our incident data. I guess there are something like 
19,000 reports in that; and we do not go through each one of 
those reports in detail to determine whether it is, let us say, 
a reportable incident.
    Mr. Nadler. So you have no idea how many wet-lines 
accidents have occurred?
    Ms. Douglass. We do not go through----
    Mr. Nadler. Answer my question, please.
    So you have no idea, therefore. Is that what you are 
saying?
    Ms. Douglass. No. No.
    Mr. Nadler. You have no idea how many wet-lines incidents 
have occurred?
    Ms. Douglass. I do not have any idea how many incidents 
occurred, but in terms of a serious incident, we do know, and 
in terms of injuries and deaths, we do know.
    Mr. Nadler. Well, how do you know about a serious incident 
if you do not know the number of incidents, generally?
    Ms. Douglass. Because those are reported to us as serious 
injuries.
    Now, let me just say that I am concerned--I did not realize 
that we did not go through all of those, and it is very staff-
intensive to do that, but I think that we do need to reevaluate 
our data analysis and how we are going to do this.
    Mr. Nadler. Well, it seems to be so staff-intensive that it 
took one person from the Committee to find 103 incidents.
    Ms. Douglass. Okay. I thought we found 32 or something, 
that it ended up being 32.
    Mr. Nadler. There were 70 gasoline incidents and 33 more 
involving other hazardous materials.
    Let me suggest one incident that PHMSA failed to report, 
which our staff person discovered, which was in 2006, in 
Georgia, where an Army Ranger was commended for his actions in 
pulling a woman from her burning vehicle after she had hit a 
wet line and the vehicle had ignited.
    The incident cost $280,000 in damages. If it had not been 
for the Army Ranger, we might have had a fatality. The company 
wrote in the accident report, "The only solution to preventing 
this type of occurrence would be the ability to clear products 
out of the loading or unloading lines of the petroleum tanker. 
If the 60 to 80 gallons of petroleum had not been present, then 
the initial fire would not have been created. The incident 
would have been much less severe."
    So, in other words, this is one of the nonserious incidents 
that you did not report?
    Ms. Douglass. I would definitely call that a serious 
accident.
    Mr. Nadler. Well, it is one of the incidents that was not 
reported.
    How is it that PHMSA could not have identified these 
incidents without the help of Committee staff? Perhaps more 
importantly, if you do not know about these incidents, how can 
PHMSA be made aware of accident trends if you cannot read your 
own database?
    Ms. Douglass. Well, I think you have got a good point that 
we are not putting enough effort into data analysis. I am very 
concerned about it, and I have asked our senior policy analyst 
to look at that, to review the data quality and to understand 
what is happening, that we would not have captured that.
    Mr. Nadler. But in addition to that----
    Ms. Douglass. And we are putting some additional staff 
there as well, and we may need to put more staff.
    Mr. Nadler. Good. As a result of the Committee's staff work 
in the last couple of days?
    Ms. Douglass. Yes.
    Mr. Nadler. Now, you have done a cost-benefit analysis in 
which you concluded that the cost-benefit did not mandate that 
these recommendations of not using the wet lines for 
transporting flammable materials was just not worth 
implementing?
    Ms. Douglass. No, I do not think that is--I do not think 
that is what I said, but let me--can I explain that?
    Mr. Nadler. Please, briefly.
    Ms. Douglass. We have limited staff, so we focus our work 
on items that we consider to be high risk, and I have outlined 
that in the testimony.
    Mr. Nadler. All right. That is fine.
    But my question is, your cost-benefit analysis concluded 
that it was not adequate to require purging systems on new 
trucks. Now, aside from the fact that the cost-benefit analysis 
was the benefit-cost ratio of 1.2-to-1, which would seem to 
indicate that it was cost-effective--put that aside.
    If you do not know how many incidents there are, how can 
you begin to assemble a cost-benefit analysis?
    Ms. Douglass. We did not do a cost-benefit analysis, but 
because there were not any deaths or injuries and there were 
very few incidents--and our incident collection was wrong--we 
focused on things that were of higher risk, and we put our 
resources into that.
    Now, since I have been there in the last 3 months, I have 
been going through the NTSB recommendations, and we have been 
talking about all of these things, including the wet lines 
issue. I did learn that a lot of very good information about 
the Sunoco--and we are doing more research on, or more analysis 
on, what the possibilities are on wet lines. And it may very 
well be that we can find some cost-beneficial regulations to 
move forward on.
    Mr. Nadler. I am puzzled, though. I am holding your cost-
benefit analysis in my hand. It was done in 2006. It says Cost-
Benefit Analysis.
    Ms. Douglass. I am not aware of it. I am sorry. I am not 
aware of it.
    Mr. Nadler. Does the analysis show that the benefits 
outweighed the costs at a 3 percent discount rate? There are 
three alternatives.
    The first one is purging system on new trucks starting on 
January 1, 2008. The total benefits are at a 3 percent discount 
rate of $44 million and change. The total cost at a 3 percent 
discount rate is $36 million and change. The benefit-to-cost 
ratio, 1.2 to 1.
    Purging system on trucks manufactured on or after January 
1, 2002, retroactive: Benefit, $64 million; cost, $51 million; 
benefit-to-cost ratio, 1.25 to 1.
    Purging system on new and existing trucks, all new and 
existing trucks: Benefit, $81 million; cost, $73 million; 
benefit-to-cost ratio, 1.11 to 1.
    Then it goes into the assumptions made here. One of the 
assumptions, by the way, is that a fatality is worth $3 million 
per life. The current value is $6 million per life. I do not 
know if that is a high or a low estimate.
    Ms. Douglass. I have not seen that piece of paper or heard 
about it, but Mr. Willke may be able to shed some light on 
that.
    Mr. Willke. Congressman, the first thing I want to say is 
that we have not been looking at this because there have been 
no deaths or injuries that have been brought to our attention.
    I think that you are absolutely right; we need to do a 
better job at looking at the data to analyze it. We get about 
15,000 incidents a year, and we need to look at the narratives 
of each of these incidents in order to determine what their 
real cause is.
    I am not fully aware of the benefit-cost, but my 
understanding is that the benefits did not justify the costs, 
and there was a lot of public comment that the cost of these 
systems were understated in the benefit-cost analysis. So my 
understanding is that, at that time, there was not enough 
justification to go forward.
    But I think we are in a position now to take another look 
at the data, to take a look at the experiences that have 
occurred within the last 5, 6 years and to determine whether or 
not we should take another look at this.
    Mr. Nadler. Well, I certainly hope you do.
    Let me just ask Ms. Hersman if you want to comment on what 
Mr. Willke just said.
    Ms. Hersman. The Safety Board has long been on record with 
this recommendation.
    Regardless of whether or not there are fatal accidents, I 
think there are enough incidents that there is the ability to 
move forward. It just takes one accident to have a catastrophic 
consequence.
    What we saw in Yonkers was not just the fatality, but also 
the complete destruction in Yonkers, New York, of that overpass 
and of the highway that supported it as well.
    So, if you factor into the cost-benefit analysis damage to 
infrastructure and delays, you might be able to make a better 
case.
    Mr. Nadler. I just have one final question in this round 
because I understand there may be more rounds of questioning.
    For Ms. Douglass or Mr. Willke: I am fascinated by this use 
of benefit-cost analysis and of trying to give a figure in 
terms of the benefit-cost analysis to a human life. I mean, 
there is a certain category of accidents. It is a very 
interesting category which may be rare--although this one does 
not seem to be that rare--but when they occur, they could be 
catastrophic.
    Certainly, this could be catastrophic. You could wake up 
tomorrow and find out that 25 people were killed in an 
accident. We have seen that with some of the railroad stuff, 
where things were not done until there was something mandated 
after a lot of people were killed, even though the authorities 
had been resisting the safety implementation for many years 
until that occurred.
    So my question is, who do you know who would volunteer to 
tell the next of kin when the accident occurs, as it certainly 
will at some point, that the costs did not outweigh the 
benefits?
    Ms. Douglass. What do you want me to say to that?
    Mr. Nadler. I do not know.
    Ms. Douglass. What would you like for me to say?
    Mr. Nadler. I do not think there is any answer to that, 
which is why I asked the question.
    Ms. Douglass. There is not.
    Ms. Brown of Florida. Thank you, Mr. Nadler.
    Mr. Nadler. Thank you.
    Ms. Brown of Florida. We are going to go to Ms. Richardson, 
please.
    Ms. Richardson. Thank you, Madam Chairwoman. I almost hate 
to say I have two questions for Ms. Douglass. I think she could 
probably use a break.
    But I have two very brief questions, ma'am.
    According to the testimony of Dr. Donaldson, the Senior 
Research Director for the Advocates for Auto and Highway 
Safety, there must be a greater dialogue between the Federal 
Motor Carrier Safety Administration, as well as your 
administration. I understand your organization is a small 
agency that coordinates with several other agencies.
    Can you tell me if you have the capability to fulfill one 
of Dr. Donaldson's recommendations, which is specifically to 
require training and a security plan criterion that would be 
applied by your organization for motor carriers and approved, 
stored and audited?
    Ms. Douglass. If we have the ability to talk with the Motor 
Carrier Safety Administration about this--we do talk with them 
quite often.
    Ms. Richardson. Have you fulfilled the recommendations of 
requiring specific training and specific----
    Ms. Brown of Florida. Excuse me.
    Ms. Douglass, would you please pull your mike forward.
    Ms. Douglass. Okay. Are you talking about a TSA, 
Transportation Security Administration, requirement?
    Ms. Richardson. I am talking about in reference to Dr. 
Donaldson's testimony. Have you reviewed that?
    Ms. Douglass. I have not seen that.
    Ms. Richardson. Okay.
    Ms. Douglass. I would be happy to get back to you on that.
    Ms. Richardson. Okay. That would be fine. If you could, get 
back to this Committee, to the Chairwoman.
    Ms. Douglass. Sure.
    Ms. Richardson. Okay. Thank you.
    My last question is--one of the things I always find 
interesting as a new Member is, when we have one panel, the 
next panel comes up, and then we do not have an opportunity to 
really hear your feedback back and forth.
    The American Trucking Association stated in their 
testimony, which I hope you have had an opportunity to have an 
understanding of, that a carrier should not be responsible for 
transporting undeclared hazardous materials, where a shipper 
neither labels the package nor presents a hazardous material 
shipping paper to the carrier prior to transportation.
    What is your response to this? In your opinion, who has the 
duty to ensure that the shipping papers are accurate and to 
inspect the package prior to taking possession?
    Ms. Douglass. Well, I believe that our position on this--
and Ted, correct me if I'm wrong on it--but I believe our 
position on this is that the carrier does not have that 
responsibility.
    They have a responsibility to--if they had a reason to know 
that this would be a hazardous material, and it was not 
properly marked or packaged, then they would have that 
responsibility; but if they had no way of knowing that, I do 
not believe we would cite them as violating the regulation.
    What we would do is--undeclared HAZMAT is very difficult to 
find. And we have had a number of investigations this year, and 
we are trying very hard to identify where undeclared comes 
from. It is a variety; it comes from a variety of sources.
    Ms. Richardson. Ma'am, I have got 1 minute and 30 seconds 
left.
    You mentioned if they should know. What would those 
conditions be that they should know even if it were not 
properly labeled or did not include the paper?
    Ms. Douglass. There could be--I do not know--perhaps a leak 
or a bad smell or something like that. It might be an indicator 
that there is a HAZMAT in there.
    There are probably other ways that----
    Ms. Richardson. Do you have a process in place with the 
carriers to assist them to anticipate that or to know that that 
problem might lead to this issue?
    Ms. Douglass. We do a lot of public outreach on undeclared 
HAZMAT in a number of different ways, but--through our Web site 
and through training and through seminars and that sort of 
thing, we do reach out on undeclared HAZMAT. It is a huge issue 
for us.
    Ms. Richardson. I would recommend that you follow up with 
the association and also with the unions that support this area 
to ensure that they feel the same satisfaction.
    Ms. Douglass. Okay.
    Ms. Richardson. I yield back the balance of my time. Thank 
you.
    Ms. Brown of Florida. Thank you.
    Ms. Douglass, I just have a couple of questions, and then 
we have a couple of more rounds.
    In the SAFETEA-LU legislation, Congress doubled the funding 
for the Firefighter Training Grants Program from $14.3 million 
to $28.8 million. It was the understanding of Congress that the 
DOT would increase the registration fee to finance the higher 
authorization, if necessary. This did not occur. As a result of 
the amounts, we do not have sufficient funds.
    On February 13, 2009, Chairman Oberstar and I sent a letter 
to Secretary LaHood, urging him to increase the fees to fund 
the program at the authorized level.
    Can you tell me where we are with it?
    Ms. Douglass. Yes. We sent a letter back to you on--I think 
it is dated May 5, so it may not have worked its way through 
your system yet. But there seems to be a bit of a 
misunderstanding on that.
    We do have enough money in our grant program. We have $28.3 
million to fund the program for this next year. The process is 
that--we are all set for this next year for the funding. We 
have got the $28.3 million and it will go out.
    Next year, into the next fiscal year, early on, we will 
issue a Federal Register notice that asks, or requires, the 
companies to send in a certain amount of money to reach the 
next year's amount of $28.3 million. We do that each year. 
However, in some years, we have moneys left over that are not 
actually spent by the States.
    If those moneys that have gone out are not spent, they 
actually come back to us, and so we do not need to collect as 
much money the next year. Sometimes we end up overcollecting, 
so we end up with a pot of money that is enough to fund the 
$28.3 million.
    We work very closely with OMB to make sure that we do have 
the right amount of money each year to put into the grant 
program. But we fully fund the grant program.
    Ms. Brown of Florida. Do we do the full authorization here 
as far as your staffing? Because my understanding is, you only 
have 35 employees, and some of the issues that have been raised 
today show that----
    Ms. Douglass. On the enforcement program, we actually have 
35 inspectors and then an additional 7 supervisors who also can 
do inspections. That is 42. We do about 2,000 inspections a 
year.
    Then, of course, in addition to that, the FAA has 
inspectors who look at airlines, at airline issues on HAZMAT. 
It is the same with rail and the same with the Motor Carrier 
Administration, and of course, they have the MCSAP and the 
State Highway Patrol.
    We primarily go to shippers and look at the markings and 
packaging to ensure that they are correct. And we have asked--
not asked for; we have in our 2010--let's see, our 2009, we 
have additional inspectors; and in 2010, we will be adding all 
together about ten new inspectors and then about five 
individuals for other programs, like in data analysis and also 
in the grant program, because it has run from $14 million to 
$28 million in a couple of years.
    Also, in our special permit program, we are adding some 
additional staff as well.
    So that is where we are right now on staff.
    Ms. Brown of Florida. So you are comfortable with the level 
of staff?
    Ms. Douglass. Well, I would anticipate that we will 
continue to ask for an increase over the next few years, of 
staff.
    Ms. Brown of Florida. Okay. Just a couple of other 
questions.
    How much hazardous material is transported on a daily 
basis? Do you know?
    Ms. Douglass. Well, I think it is about 1 million shipments 
daily, 1.2 million shipments daily. It is a lot. You know, 
there is a lot of HAZMAT.
    Ms. Brown of Florida. Did you want to respond to that?
    Mr. Willke. As to how many shipments are done per day, you 
know, we do not know enough. We have guessed that the number of 
shipments is about 1 million shipments per day, but we really 
do not know. It is one of the reasons why we would like to do 
more data analysis, looking at commodity flows in this country, 
to see if we can figure out where hazardous materials are 
flowing and what we need to do to address the risks and to help 
the emergency response community deal with it.
    Ms. Brown of Florida. Well, you understand why we feel that 
we need to get on top of it, if we think about 9/11. I mean, 
everybody out there is not our friend, and we need to kind of 
plan and prepare beforehand. And we need to know how this 
hazardous material is flowing and how we can best protect our 
mutual constituents.
    Mr. Shuster.
    Mr. Shuster. I would like to make a couple of comments.
    We need to make sure we do not lose sight, as I said in my 
opening statement, of the folks who move hazardous materials 
around this country. It has been a remarkable safety record, 
remarkable, and if you want to look at things--I mean, we are 
never going to be able to make it 100 percent. We wish we 
could, but we cannot.
    If we want to get to a point like that--for instance, on 
our highways today there are over 40,000 people who are going 
to die this year. It is tragic, but it happens. We have to do a 
cost-benefit analysis and be realistic in our approach to this.
    Again, roughly 109 people will die today on the highways in 
America. Now, if you want to not have 109 people die on the 
highways of America, a way to stop it is for nobody to drive. 
So if you want to have a 100 percent record on hazardous 
materials, then let's stop shipping them. Then people will have 
water in their systems they cannot drink because they will not 
have the chlorine to clean it.
    So we have got to look at this in a realistic way; and the 
rhetoric, I think, needs to be turned down a bit. When you talk 
about hazardous materials, all of a sudden, everybody gets 
worked up.
    Ms. Hersman, you say "catastrophic." A death is certainly 
bad. It is tragic. What is your definition of "catastrophic" in 
a situation like this? Because I guess we have looked back, and 
there have been deaths, and that is terrible; it is a tragedy. 
What is "catastrophic"? What is your view--or your definition, 
I guess, of "catastrophic"?
    Ms. Hersman. Unfortunately, the Safety Board is charged 
with looking at things that are catastrophic. I just came from 
a public hearing that we are having on the 50 fatal accident 
that happened in Buffalo, and while as a whole the aviation 
system is very safe, we are still investigating each accident 
to learn from them and make improvements.
    Statistically, we do not have a lot of fatal aviation 
accidents, but what the Congress has asked the NTSB to do is to 
investigate accidents, to find the probable cause and to make 
recommendations to prevent them from happening again.
    Mr. Shuster. Right.
    Ms. Hersman. So, for us, a catastrophic result is when it 
is a high-consequence event.
    The challenge with the wet lines is, they were not really 
designed initially to hold the product going from the rack to 
the gas station. The tankers were top-loaded. When that was 
changed, they ended up bottom-loading them. Now they are 
carrying that product in what was intended to be a sacrificial 
line. It is designed to break away, but it was not ever 
supposed to have product in it when it was first designed.
    So I think that is the challenge. We have found a 
vulnerability and a weakness. In lining up the wet lines of a 
tanker and cars we found a vulnerability. For us, a 
catastrophic outcome is one where there is likely to be a 
fatality if things go wrong.
    Mr. Shuster. All right. I mean, words matter, and when you 
say "a catastrophe"--I mean, Katrina was a catastrophe. 9/11 
was catastrophic. Certainly, it is terrible if a loved one 
dies.
    But, again, as people who are looking at these issues, we 
have got to make sure of the words we use--because we say a 
"catastrophic event" and one fatality is bad--but thousands of 
people are not dying, and the fact remains that this is a 
remarkably safe industry that has been moving these materials 
around.
    So, again, we want to try to improve things, but we have 
got to look at them and do a cost-benefit analysis. Or, as I 
said--turning back to our highways, you want to have zero 
fatalities--either everybody is off the roads or we drive 10 
miles an hour, and that makes no sense to do that because we 
will ruin our economy.
    So I just want to point out that, again, there are 
situations. We are looking for improvement, but the 
transportation industry in this country has done a remarkable 
job of moving hazardous materials around in a very, very safe 
manner.
    I yield back.
    Mr. Hare. [Presiding.] Thank you. I guess I am the 
temporary Chair here. I told the Chairwoman I would try not to 
mess it up too awfully while she was gone.
    I have just a couple of questions.
    Ms. Douglass, most of the HAZMAT incidents occur during 
loading and unloading operations, as I understand it. What is 
PHMSA's attitude to this, and what are you doing to address 
this issue?
    Ms. Douglass. Do you want go ahead and answer this?
    Mr. Willke. Congressman, if I may----
    Mr. Hare. Sure, you may.
    Mr. Willke. Loading and unloading represents one of the 
highest----
    Mr. Hare. Is your mike on? I am sorry.
    Mr. Willke. We have identified very high-potential risky 
events--fire aboard aircraft, loading and unloading--and we are 
focused very intensely on loading and unloading. It represents 
a very high fraction of a number of serious incidents that 
occur in this country.
    About 25 percent of all of our serious incidents occur in 
loading operations or in unloading operations, and another 25 
percent occur en route, accidents where loading is a factor in 
that. So we are intensively addressing this issue in a couple 
of ways.
    We have entered into rulemaking. We are looking at best 
practices for loading and unloading, and we are looking at 
incorporating specific standards for loading and unloading 
operations, for transfer equipment, the training of employees, 
and emergency shut-off equipment. We believe these measures can 
dramatically improve the record on loading and unloading.
    Mr. Hare. In 2003, PHMSA issued a final rule that defined 
"transportation" to include loading and unloading operations 
while the carrier is present in transit and storage incidental 
to movement.
    Does the NTSB believe that PHMSA should have the authority, 
as provided in statute, to issue regulations governing loading 
and unloading operations at fixed facilities when the carrier 
has left the premises, such as at a fixed facility?
    Ms. Hersman. We believe that PHMSA does have the authority 
to regulate that right now. It is just a question of whether or 
not they choose to exercise that authority.
    Mr. Hare. So, to clarify, your concern is with the DOT's 
authority, not with the authority that OSHA has to regulate the 
safety and health of workers; is that correct?
    Ms. Hersman. We do not have specific concerns about OSHA's 
authority; we want them to exercise the authority they have. We 
have made recommendations to OSHA on this issue, too. We think 
that there is a place for OSHA with respect to things like PPE, 
and if there is an accident, to have provisions to communicate 
that there is an emergency and to address emergency shut-off 
valves.
    We definitely think there is a role for OSHA, but we do 
think that the DOT does have the authority to regulate loading 
and unloading. What we would really like to see is for PHMSA to 
codify their recommended best practices for loading and 
unloading, because right now they have those best practices, 
but they are not enforceable. We would like to see them be able 
to enforce their best practices.
    Mr. Hare. So do you recommend that the practices of PHMSA's 
published address address these issues?
    Ms. Hersman. Yes, we think they need to codify those.
    Mr. Hare. Ms. Douglass, if I heard you correctly--and I 
think I did; if I did not, you can give me the correct 
figures--in 50 States, there are nearly 300,000 HAZMAT 
entities; is that correct?
    Ms. Douglass. I am not sure about--about 300,000 entities. 
Do you know if that is right?
    Mr. Willke. We know that there are over 100,000. We think 
there could be as many as 300,000 entities that we regulate 
under the hazardous materials safety regulations.
    Mr. Hare. How many inspectors are there per region?
    Ms. Douglass. There are about--an average of 7 per region. 
Some have more and some have less because there are about--
there are 5 regions and 35 inspectors and another 7 in 
supervisors.
    Mr. Hare. So, if my math is correct, I think you testified 
that there are about 2,000 inspections done per year; is that 
correct?
    Ms. Douglass. Uh-huh.
    Mr. Hare. So, if there are 300,000 entities that you have 
out there, with the inspectors that you have, it would take a 
lot of years, correct, to be able to inspect all of the places 
that you need to inspect?
    Ms. Douglass. Right. Exactly.
    Mr. Hare. So are you advocating for additional inspectors?
    Ms. Douglass. We asked for additional inspectors and we got 
additional inspectors, and we are likely to ask for some 
additional inspectors.
    Mr. Hare. How many do you think it would take to do the job 
the way you want to have it done as correctly as we can do it 
with the safety of people at stake here?
    Ms. Douglass. I just do not have an answer for you on that. 
We have discussed this and discussed it. How many inspectors do 
you need to do a good job?
    We think we are doing a really good job as it is, but we 
can always do more. We can always do more inspections, and we 
can always use more inspectors.
    But I do not know what the right number is. I wish I could 
give you a formula and tell you. If you told me that you 
thought it was important to go to every one of those 300,000 
facilities in a year, I can figure out the math about how many 
inspectors we would need. But, you know----
    Mr. Shuster. Would the Chair yield for a point?
    Mr. Hare. I certainly would.
    Mr. Shuster. In my notes, I have that although you have 35 
inspectors and are authorized at 15 more----
    Ms. Douglass. Right.
    Mr. Shuster. --the other modes--the FAA, the Federal Motor 
Carrier, the FRA--all have inspectors also that, by law, have 
to enforce these HAZMAT laws and requirements.
    Ms. Douglass. Yes.
    Mr. Shuster. There are some 360 inspectors out there, so 
you are not the only ones doing it.
    Ms. Douglass. That is true. But those are out on the roads 
or out on an aircraft or on a rail system. But generally where 
we do inspections is like at the shipping facilities, at the 
chemical manufacturing facilities, at the specialty 
manufacturing facilities.
    Mr. Shuster. Sure, but you are not the only ones out there. 
My point is, there are other people looking over your shoulder 
and around the bend, at different modes.
    So I yield back.
    Mr. Hare. Just two final questions.
    On the question, Ms. Douglass, that I was asking Ms. 
Hersman about, Is this something that PHMSA plans to address, 
do you have any objections to codifying recommended practices 
in the regulations?
    Ms. Douglass. We have no problem with that, and in fact, we 
are in the process of doing that.
    Mr. Hare. That is great. Just one last question:
    The Institute for Makers of Explosives and the American 
Trucking Association have taken the position that the 
Department of Transportation should be required to notify both 
the carrier and the shipper before a package is inspected.
    I wonder, from your perspective, what impact this would 
have on inspections.
    Ms. Douglass. I think this would put us in a difficult 
situation in terms of our inspections.
    Ted, I think you are in a better position to comment on 
that.
    Mr. Willke. Congressman, we agree with the idea that if the 
problem is with the shipper, then whenever there is a 
violation, it should be addressed with the shipper and not with 
the carrier. The problem is that, especially in roadside 
inspections, the citation is often given to the carrier, partly 
because it is the practice of the particular State where it is 
done.
    We believe that there are ways to address this issue. We 
are working with the Commercial Vehicle Safety Alliance, which 
is an association of State troopers and inspectors. We believe 
that there are ways for us to improve that situation, for 
example, requiring that the shipper be identified whenever 
there is a citation for a hazardous material incident.
    So we believe that there are ways that we could work on it 
to correct that problem. Our concern is that we would not want 
to unnecessarily delay shipments by having to identify the 
shipper at the time a stop is made. So a stop that only takes a 
few minutes might take several hours if we had to also identify 
the shipper and contact the shipper at the same time.
    Mr. Hare. Thank you.
    The Chair recognizes Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    This question is probably for both Ms. Douglass and Ms. 
Hersman. This question is about trains carrying hazardous 
substances in the National Capital Region.
    Federal employees and residents in this very dense region 
have lived with a continuous tension, most of it from a total 
lack of transparency on a subject of huge urgency involving 
hazardous materials. Let me begin by indicating just how 
serious this is.
    I have just written a piece about how the American people 
after 9/11 did not ask for an answer to the question, Are we 
safe? It was, Are we safer from unpredictable incidents like, 
for example, 9/11, anthrax--even Katrina, which was in many 
ways predictable, but where you would not have known we had an 
understanding of how to look for danger and then move to take 
care of it.
    I looked back at my files in preparation for this hearing, 
and found a letter I had written to then-Secretary Tom Ridge at 
the Department of Homeland Security. I happen to be on the 
Homeland Security Committee as well. That letter came after a 
notorious freight train accident occurred in South Carolina. It 
involved a 42-car freight train, which collided with a smaller, 
stationary train. What leaked out was deadly chlorine gas from 
one of three cars that was carrying liquid chlorine. Two 
freight cars were carrying another substance--cresol and sodium 
hydroxide.
    Now, let me just indicate to you that this is happening--
that this has happened in this region where you have no 
information except that you know that hazardous substances are 
being transported within 4 miles of the Capitol. You cannot get 
an answer. I am not saying a straight answer; I am saying an 
answer from the Federal Government.
    So look at what happened in South Carolina. What happened 
in South Carolina is that, in 2005, seven people were killed. 
And they were killed not from the wreck; they were killed from 
inhaling fatal, toxic chlorine fumes. More than 200 had such 
difficulty in breathing that they had to be carried to the 
hospital. Fifty-four hundred people within a mile of the 
chlorine spill were evacuated. The Governor of the State 
declared an emergency in the entire county for approximately 10 
miles around.
    Now, I have no idea what is being transported here, but we 
are sure--indeed, it was very reliably reported--that 
substances of this kind were transported throughout this 
region, including as close to the Capitol as I just indicated. 
Here is where we have 200,000 Federal employees, giving us a 
greater Federal responsibility than we would have had in South 
Carolina. I have regarded it as the most pressing security 
matter facing the National Capital Region.
    When the Federal Government would say nothing, the local 
government in the District of Columbia, which technically you 
might argue has no jurisdiction because we are talking about 
interstate commerce, not only had hearings but passed a law 
indicating that they must find a way around the densely 
populated District and this region.
    The matter went to court, and something extraordinary 
happened. The defense was raised that the District of Columbia 
cannot enact laws affecting interstate commerce. Guess what? 
That is true virtually all of the time, and there is an 
exception in the way the courts have interpreted the commerce 
clause, and that is that a local jurisdiction may enact 
legislation when there is a clear and present danger to people 
in the local jurisdiction and when the Federal Government 
refuses to move. So the Federal judge refused to throw the 
matter out, and there it stood.
    For a long time, Homeland Security and the railroad refused 
to say anything even to the judge. There was an attempt to 
speak in camera to the judge. I mean, this was an outrage right 
here in the Nation's Capital.
    The testimony could not have given anybody comfort. The 
regional vulnerability stemmed from 42 miles of track here, 
also in nearby Maryland and Virginia. I remind you that the 
Federal presence is located in the area I speak, in the 
District of Columbia and in these two counties. Over this area, 
without any denial from the railroad or from Homeland Security 
or elsewhere in the Federal Government, we learned that the 
most hazardous materials, chemical cargo including chlorine, 
ammonia, hydrochloric and sulfuric acids, traveled--travel--I 
do not know because I still do not know anything.
    The testimony, uncontradicted, was that, depending on the 
wind conditions, an attack on one 90-pound railcar carrying 
ultrahazardous chemicals could release gases that would carry 
for 14 miles or more in various directions; and that could kill 
or injure up to 100,000 people in the city and in the region in 
a half hour, even those inside buildings. That was the 
uncontradicted testimony.
    My question to you is, Are there freight cars with 
hazardous materials traveling today within 4 miles of the 
United States Capitol, where we sit?
    Ms. Douglass. I do not know the answer to that, but I do 
know that we have adopted some routing regulations with the 
Federal Railroad Administration, and there is a process now for 
determining routes. There is a computer model, and the 
railroads are supposed to consider the safest and most secure 
routes, and evaluate what alternatives they have in the area.
    We will know the routes that they----
    Ms. Norton. Who is the "we" who will know the routes?
    Ms. Douglass. Well, the FRA, really, will know the routes 
that have been selected by the railroads.
    Ms. Norton. Now, I do not want to tell the terrorists what 
the routes are, but what bothered me and what still bothers 
me--and I am going to have to ask for an answer even if in a 
secure environment. What bothers me is that nobody in the 
Federal Government was willing to give an answer.
    What you are talking about is something that we enacted, 
finally, when Congress changed hands, in the first bill ever 
enacted for public transportation security, which has included 
some freight security as well. There were instructions given to 
the appropriate agencies, but no one in this region has had any 
information about what has been done. And I am aware of what 
you are speaking of.
    So my question to you is this: Are you willing to sit with 
this Subcommittee and with Members of the Homeland Security 
Committee in a secure meeting so that we can at least ascertain 
what, if anything, the government has done?
    Ms. Douglass. I can--we can do that if that is--you know, 
if that is legal and possible. I do not know the answer.
    Ms. Norton. I assure you it is legal. It is legal for any 
agency of the Federal Government to tell any Member of Congress 
anything any Member of Congress wants to know.
    Ms. Douglass. Then we can tell you.
    Ms. Norton. I asked for a secure meeting because I 
certainly am not interested in disclosing what we learned. I am 
not even interested in disclosing what we learned to members of 
the region who still live in fear because of the utter lack of 
transparency about whether anything is being done at all.
    There were rumors that, well, yes, they are doing some 
rerouting. Who? What? Under what authority? This was before the 
bill was passed.
    I ask you this question now because the bill has been 
passed, because that bill was passed last session and because 
there has been time for action to have been taken.
    So, on the call of the Chair, I am asking if the Chair 
would arrange such a secure meeting for those Members who would 
be interested in attending.
    Mr. Hare. Yes.
    Ms. Norton. Thank you very much. We will be in touch then, 
and I thank you for your generosity in allowing this question.
    Mr. Hare. I thank the gentlelady.
    Well, let me thank this panel. I know you have been here a 
long time, and we are going to actually let you get out of here 
now, so I know that is going to break your hearts.
    I would like to bring up our second panel now, but thank 
you so much for taking the time out to be with us today. We 
appreciate it.
    Ms. Douglass. Thank you all.
    Mr. Hare. You are welcome.
    While our second panel is getting ready, let me just 
introduce them.
    We have Chief Jeffrey Johnson, who is the First Vice 
President of the International Association of Fire Chiefs; Ms. 
Elizabeth Harman, who is the Director of Hazardous Materials 
with the International Association of Firefighters; Mr. Mark 
Rogers, who is the Director of the Dangerous Goods Program, 
Airline Pilots Association, International; Mr. Robert--and I 
hope I pronounce this right--Petrancosta, pretty good--who is 
the Vice President of Safety for Con-way Freight, and he is 
testifying on behalf of the American Trucking Association; Mr. 
LaMont Byrd, who is the Director of Safety and Health from the 
International Brotherhood of Teamsters; Dr. Gerald A. 
Donaldson, who is the Senior Research Director, Advocates for 
Highway and Auto Safety; and Ms. Cynthia Hilton, who is the 
Executive Vice President of the Institute of Makers of 
Explosives.
    Let me welcome the panel. I would like to remind the 
witnesses that, under the rules of the Committee, oral 
statements are limited to 5 minutes, but your entire statements 
will appear in the record.
    We are very pleased to have all of you here. Thank you for 
waiting. I know we had votes and some lengthy questions, but we 
are pleased to have you.

 TESTIMONY OF CHIEF JEFFREY D. JOHNSON, FIRST VICE PRESIDENT, 
 INTERNATIONAL ASSOCIATION OF FIRE CHIEFS, AND CHIEF, TUALATIN 
 VALLEY FIRE AND RESCUE, BEAVERTON, OREGON; ELIZABETH HARMAN, 
 DIRECTOR OF HAZARDOUS MATERIALS, INTERNATIONAL ASSOCIATION OF 
FIRE FIGHTERS; MARK ROGERS, DIRECTOR, DANGEROUS GOODS PROGRAM, 
AIR LINE PILOTS ASSOCIATION, INTERNATIONAL; ROBERT PETRANCOSTA, 
   VICE PRESIDENT-SAFETY, CON-WAY FREIGHT, ON BEHALF OF THE 
 AMERICAN TRUCKING ASSOCIATION, INC.; LaMONT BYRD, DIRECTOR OF 
  SAFETY AND HEALTH, INTERNATIONAL BROTHERHOOD OF TEAMSTERS; 
GERALD A. DONALDSON, Ph.D., SENIOR RESEARCH DIRECTOR, ADVOCATES 
FOR HIGHWAY AND AUTO SAFETY; AND CYNTHIA HILTON, EXECUTIVE VICE 
      PRESIDENT, INSTITUTE OF MAKERS OF EXPLOSIVES AND CO-
    FACILITATOR, INTERESTED PARTIES FOR HAZARDOUS MATERIALS 
                         TRANSPORTATION

    Mr. Hare. I would now like to recognize Chief Johnson for 
his testimony.
    Chief, welcome.
    Chief Johnson. Good afternoon, Interim Chair, Ranking 
Member Shuster and distinguished Members of the Subcommittee.
    I am Jeff Johnson, Fire Chief of Tualatin Valley Fire and 
Rescue, located in Beaverton, Oregon, and am the First Vice 
President of the International Association of Fire Chiefs, 
which represents nearly 13,000 chiefs across this country who 
are the leaders of the nearly 1.1 million firefighters and 
emergency responders that consist of firefighters, emergency 
medical technicians, and hazardous materials responders.
    Today, I would like to thank the Committee for the 
opportunity to discuss the U.S. Department of Transportation's 
Pipeline and Hazardous Materials Safety Administration, PHMSA.
    The transportation of hazardous materials is an integral 
part of the U.S. economy. According to PHMSA, there are close 
to 1 million shipments of hazardous materials daily. Most of 
the shipments arrive safely, but there are approximately 
250,000 incidents each year. When these incidents occur, local 
fire and emergency services responders arrive to protect the 
public. Within the past few years, a number of new challenges 
have arisen to face emergency responders and HAZMAT teams.
    Due to Federal policy, new breakthroughs in technology and 
the recent high petroleum prices, there has also been a new 
focus on alternative fuels. In the past 2 years, ethanol 
production and use have skyrocketed, and fuel-grade ethanol is 
now the number one freight rail commodity, by volume, in this 
country. In addition, more than 250 million gallons of 
biodiesel fuel are produced annually and are shipped in 
different concentrations.
    Fire departments cannot use the same tactics and equipment 
they used before for petroleum-based fires. Instead, they must 
be equipped with the right equipment, including alcohol-
resistant foams and tactics to respond to alternative-fuel 
incidents.
    The terrorist attacks of September 11, 2001, also raise the 
specter of terrorism as a new threat for fire and emergency 
services. Local first responders will be the first on scene for 
an attack utilizing a weapon of mass destruction, and a weapon 
of mass destruction is essentially a HAZMAT incident with 
intent and an attitude. It involves a larger area, with greater 
casualties and longer recovery duration than a conventional 
incident would.
    Fire departments have spent the last 8 years preparing for 
a future WMD incident, but these preparations require the 
development of new skills and an increased commitment of time 
and resources. New technology can be both a help in dealing 
with these challenges and a challenge in its own right.
    The Internet offers a wide variety of resources for 
emergency responders to access and to share information and 
then to report lessons learned. However, this information has 
to come from a trusted source and be validated to be helpful to 
responders. Both the International Association of Fire Chiefs 
and PHMSA have worked together in partnership to deal with 
these challenges.
    In 2006, the IAFC joined with the Renewable Fuels 
Association, the International Liquid Terminals Association and 
others to create the Ethanol Emergency Response Coalition, or 
the EERC. Using funding from PHMSA and the U.S. Fire 
Administration, the IAFC worked with the EERC to develop 
training material and videos to educate responders about 
specific types of foam and tactics needed for responding to 
ethanol incidents. The IAFC also worked with the U.S. 
Department of Energy and National Biodiesel Board to develop 
similar training products to deal with the production, storage 
and transportation of biodiesel fuels.
    PHMSA also uses its Hazardous Materials Emergency 
Preparedness Grants to improve the basic HAZMAT response 
capabilities for first responders. Authorized at $28.8 million 
each year, HMEP grants provide financial and technical 
assistance to State and local HAZMAT planning and training 
programs.
    The IAFC encourages the Subcommittee to require that these 
grants be used to train emergency responders to both the OSHA 
1910.120 and to the NFPA 472 operations levels. The OSHA 
1910.120 standard is the current Federal standard for HAZMAT 
response, but it has not been updated in the last 15 years. The 
NFPA 472 standard was updated in 2008 to include the weapons of 
mass destruction threat. Both of these standards complement 
each other, so we recommend mandating that PHMSA require HMEP 
funds to be used to train firefighters to both standards.
    In 2007, PHMSA partnered with the IAFC to develop the 
National Hazardous Materials Fusion Center to use the Internet 
to share important information and training with HAZMAT teams 
around the country. This program is designed to link first 
responders and the private sector throughout the country and to 
allow data and the information network to share their 
experiences and information so that we may avoid problems in 
future responses.
    In closing, the National Hazardous Materials Fusion Center 
also established risk teams. These risk teams go out and gather 
postincident information and share those lessons with HAZMAT 
teams who have yet to face those kinds of problems. While the 
National HAZMAT Fusion Center uses technology to better train 
and to prepare first responders, we recommend carefully 
examining new ideas. For example, we welcome the idea of the 
electronic tracking of shipments, but caution there are 
challenges in rural America that technologically may not 
accommodate the implementation of this program.
    Again, we would like to thank you for the opportunity to 
address this Subcommittee this afternoon. The IAFC sees PHMSA 
as a valued partner in helping the fire and emergency services 
to meet the challenges we face. We are especially pleased that 
the administration proposes a $3.5 million increase in 2010 for 
PHMSA's HAZMAT safety program.
    I would like to thank the Subcommittee for its continued 
support of our Nation's firefighters and EMS personnel.
    Thank you.
    Mr. Hare. Thank you, Chief. We thank you and your entire 
organization for the wonderful work you do in protecting our 
country.
    Ms. Harman, you are next.
    Ms. Harman. Thank you, Mr. Chairman and Ranking Member 
Shuster and Members of the Subcommittee here today.
    My name is Elizabeth Harman. I serve as the Director of the 
Hazardous Materials Training Department for the International 
Association of Fire Fighters. I am pleased to appear before you 
today on behalf of the nearly 300,000 firefighters and 
emergency personnel who comprise our organization.
    Our Nation ships more hazardous materials today than ever 
before. As the potential for serious incident grows, it is more 
important than ever to ensure that our Nation's emergency 
responders are properly trained and have sufficient information 
to conduct a safe and effective response. While the Department 
of Transportation has been an innovative leader in this field, 
changes are needed to increase the effectiveness of current 
HAZMAT response training programs and to improve hazardous 
materials identification tools.
    The Nation's firefighters are the primary responders to 
incidents involving hazardous cargo; yet far too many 
firefighters are insufficiently trained. Only 29 percent of 
fire departments have trained all of their personnel in even 
the basics of HAZMAT response.
    The lack of adequately trained personnel jeopardizes not 
only our lives and property, but it also has serious economic 
implications. A recent tractor-trailer crash in Pennsylvania 
led untrained first responders to unnecessarily shut down a 
major highway and evacuate 5,000 people when they misidentified 
a hazardous substance.
    Under PHMSA's Hazardous Materials Emergency Preparedness 
Grant program, the IAFF received a grant to train instructors 
to deliver HAZMAT training to emergency responders. Our unique 
training program model provides real-world training HAZMAT 
response, delivered by instructors who are both certified fire 
instructors and certified HAZMAT responders. Our grant has 
enabled us to train nearly 2,700 instructors who have gone on 
to train an additional 59,000 responders, both professional and 
volunteer, in communities both large and small. Independent 
evaluations of the IAFF training have found our training 
programs to be highly successful and cost-effective, providing 
unsurpassed training at a low cost.
    Despite this track record, our training program is 
restricted due to limited funding. Training requests regularly 
exceed our resources, a problem exacerbated by the current 
economy, which has forced many communities to cut funds for 
training. Increased funding would help the States and 
organizations such as the IAFF to increase the number of 
students trained, as well as help fill the unmet needs of local 
fire departments.
    Additionally, we are currently limited to training 
instructors to deliver HAZMAT training response in their own 
communities. While this model has proven valuable, its 
effectiveness is limited to the extent that a local fire 
department is willing to support the trainer's activities.
    Our training program would be markedly improved by 
expanding training activities to include proven methods, such 
as direct student training and distance learning, to augment 
the train-the-trainer model. Additionally, eligible activities 
should be expanded to include funding for departments' backfill 
needs to ensure that the weak economy does not interfere with 
public safety.
    In addition to providing sufficient funds to train a 
greater number of first responders, the department has a duty 
to ensure that responders receive the appropriate level of 
training. OSHA regulations identify several training levels 
depending on a worker's duties. Unfortunately, the level of 
training provided to emergency response personnel in many 
localities is the awareness level. Awareness training is 
intended to train employees who may encounter a HAZMAT incident 
to initiate a response sequence by contacting the appropriate 
authorities, which in most cases would be the local fire 
department.
    The minimum level of training needed by first responders is 
operations level, which trains responders to protect nearby 
persons, property and the environment from the effects of the 
release. These responders are trained to contain the release 
from a safe distance, to keep it from spreading and to prevent 
exposures. Only one-fifth of fire departments have personnel 
certified at the operations level. Congress should ensure that 
all training provided to firefighters be at the operations 
level or greater.
    In addition to bolstering its emergency response training 
programs, the department should explore improving the systems 
for identifying hazardous cargo. Firefighters currently rely on 
two simple but effective tools to identify hazardous materials 
during transportation--placards and shipping papers. These 
tools have generally proven successful because they are highly 
recognizable and are easy to understand.
    However, placards and shipping papers also have serious 
limitations. They may be damaged, hidden or unreachable during 
an incident. New technologies such as an electronic freight 
management program, when combined with current identification 
systems, can help identify hazardous materials without putting 
responders at risk.
    We are also supportive of establishing a commodity flow 
tracking system which will help State and local governments 
better prepare for potential emergencies. Whatever systems are 
developed must guarantee that they are readily accessible by 
incident commanders and kept up to date.
    Finally, in addition to developing new technologies, we 
must continue to improve current HAZMAT response tools. Twenty-
four-hour hotlines, such as CHEMTREC, provide emergency 
responders with vital information during a HAZMAT incident. 
Such hotlines, however, are of little use to responders if they 
are unavailable at the time of an incident or if they provide 
insufficient information. The department may wish to set 
standards for such services such as requiring 24-hour access to 
a live operator, response guidelines and the ability to 
immediately connect a responder to manufacturers or experienced 
incident commanders.
    Thank you for allowing us to share our views on improving 
our Nation's hazardous materials capabilities. I am happy to 
answer any questions that you may have.
    Mr. Hare. Thank you very much, Ms. Harman, for being here.
    Mr. Rogers.
    Mr. Rogers. Thank you. Good afternoon, Interim Chairman 
Hare, Ranking Member Shuster and other Members of the 
Subcommittee.
    I am Mark Rogers, a commercial airline pilot and Director 
of the Dangerous Goods Program for the Air Line Pilots 
Association, International. I also have a chemical engineering 
degree from the University of Illinois.
    ALPA represents nearly 54,000 pilots, who fly for 36 
passenger and all-cargo airlines in the U.S. and Canada.
    Mr. Rogers. [Continuing.] On behalf of our members, I want 
to thank you for the opportunity to provide our safety 
perspective on the carriage of lithium batteries as cargo on 
aircraft. Lithium batteries are a part of everyday life for 
millions of Americans, powering applications as varied as 
laptop computers, cell phones, flashlights, and cameras.
    While the vast majority of lithium batteries shipped as 
cargo or carried aboard by passengers and crew members arrive 
at their destinations without incident, there have been 
numerous incidents involving overheat and fire aboard aircraft. 
These incidents have occurred both from batteries being carried 
in the cabin of passenger aircraft and for batteries being 
shipped as cargo.
    With the Chairman's permission, I would like to ask for the 
showing of a brief video that demonstrates the potentially 
volatile nature of a lithium battery. This video shows the fire 
that erupted when a laptop's lithium battery which was being 
charged in an airport terminal spontaneously ignited. You will 
notice that once the first cell on the battery ignites, the 
generated heat causes the other cells to ignite as well.
    [Video.]
    When an incident occurs involving a personal electronic 
device in the aircraft cabin, the incident is likely limited to 
a single battery and is quickly discovered by airline cabin 
personnel. Testing conducted by the FAA has also led to the 
development of cabin procedures that will result in the 
successful extinguishment of a battery fire. We therefore 
believe the correct approach to address the hazards of 
batteries in the passenger cabin is improved training and 
procedures for cabin personnel.
    I want to emphasize that we are not advocating for new 
restrictions on what passengers and crew members may bring 
aboard. ALPA does, however, have significant concern about the 
provisions governing the transport of lithium batteries as 
cargo on aircraft.
    Both of the major types of lithium batteries have 
properties that pose a risk to aircraft if the batteries are 
not properly manufactured, packages labeled, or if the 
batteries are damaged.
    Lithium ion batteries, which are typically rechargeable and 
power devices such as laptop computers and cell phones, contain 
a flammable electrolyte, resulting in a more significant fire 
following an incident than non-lithium battery chemistries. 
Lithium metal batteries, which are typically nonrechargeable 
and power devices such as cameras and flashlights, have been 
shown by the FAA to be unresponsive to halon, the extinguishing 
agent used aboard aircraft.
    When substances or articles pose this kind of risk to 
aircraft their transport is normally strictly controlled under 
Federal regulations. Both lithium ion and lithium metal 
batteries, however, are exempt from many of the hazardous 
materials provisions. In fact, the flight crew would not even 
be aware of a pallet containing thousands of lithium batteries, 
whereas an adjacent five-pound package of flammable paint or 
dry ice would be subject to the full scope of the regulations. 
We believe these exceptions are inappropriate for a commodity 
posing a risk and having a history of fire incidents aboard 
aircraft, and we are asking that lithium batteries be fully 
regulated as hazardous material.
    Furthermore, because of the inability for aircraft fire 
suppression systems to extinguish a fire involving lithium 
metal batteries, we are asking that the current ban on bulk 
shipment of lithium batteries on passenger aircraft be extended 
to all cargo aircraft until adequate packaging can be 
developed.
    Testing has shown that even the heat from a suppressed 
cargo fire is sufficient to ignite a shipment of lithium metal 
batteries, and that once ignited, the fire will quickly spread 
to all batteries in the shipment. Until packaging is developed 
which will protect these batteries, both from damage and from 
external heat, we believe they should be prohibited in bulk 
quantities on all aircraft.
    ALPA has long been an advocate of one level safety for 
cargo and passenger aircraft, and we find it particularly 
troubling that a commodity completely prohibited on passenger 
aircraft may be transported nearly unregulated on all cargo 
aircraft.
    The full regulation of lithium batteries would have a 
significant positive impact on safety. Improved packaging 
standards would help prevent damage to the batteries. Dangerous 
goods labels would ensure that the shipments were recognizable 
worldwide as having the potential to cause an incident if 
mishandled.
    An acceptance check would provide an opportunity to detect 
package damage or noncompliance with the regulations. Pilot 
notification would allow flight crew members to communicate 
hazard information in the event of an incident.
    We do recognize that the danger from a single battery in a 
package in transportation is low. We caution, however, against 
providing exceptions to the regulations for small batteries 
based on this logic, as there is nothing to prevent hundreds or 
even thousands of small batteries from being consolidated 
together in the single shipment. In fact, a fire in 1999 on the 
ramp at Los Angeles International Airport, highlighted earlier 
by the NTSB, involved two pallets, each containing over 120,000 
batteries excepted from HAZMAT regulations.
    It is only through full regulation of small batteries that 
the quantity of batteries at a single location or in a single 
cargo compartment can be addressed. Otherwise, the batteries 
are treated as general freight, and an airline is often not 
even aware of the total quantity of batteries or the risk they 
pose to aircraft.
    In conclusion, I want to express ALPA's appreciation for 
this Committee's interest in the safe transport of lithium 
batteries as cargo on passenger and all cargo aircraft. Our 
recommended actions for incorporation to the FHMCSA 
reauthorization bill will greatly enhance the overall safety of 
moving these batteries through the transportation system.
    Thank you for the opportunity to testify today. I would be 
pleased to address any questions that you may have.
    Mr. Hare. Thank you very much, Mr. Rogers. And that was an 
incredible video.
    Our next person to testify is Mr. Robert Petrancosta.
    Mr. Petrancosta. Acting Chair, Mr. Hare, Ranking Member, 
Mr. Shuster, and Members of the Subcommittee, thank you for the 
opportunity to testify on the reauthorization of the Hazardous 
Materials Safety Program. My name is Robert Petrancosta, and I 
am the Vice President of Safety for Con-way Freight, a trucking 
company with more than 8,500 trucks and 17,000 employees. We 
transport over 56,000 shipments each day, and approximately 
2,000 of these shipments are regulated HAZMAT.
    Today I appear before you representing the American 
Trucking Association. The trucking industry delivers virtually 
all the consumer goods in the U.S. and transports 94 percent 
the HAZMATs that are essential to our quality of life.
    The safety and security record for HAZMAT transportation by 
truck is impressive. In fact, the odds of being struck by 
lightning are much greater than the odds of being injured by a 
truck transporting HAZMAT. While the existing regulations 
governing HAZMAT transportation have a proven track record, I 
would like to highlight three specific recommendations to 
further improve safe, secure, and efficient transportation.
    The first recommendation, address OSHA's overlap in 
jurisdiction. ATA supports eliminating OSHA's overlap in 
jurisdiction with respect to the transportation of hazardous 
materials. This overlap in jurisdiction erodes the regulatory 
uniformity necessary for safe and efficient transportation of 
HAZMAT. Unlike the Department of Transportation, OSHA does not 
have the authority to ensure uniform regulations. States are 
free to enact more stringent worker protections than those 
established by OSHA.
    This type of regulatory framework may work well for 
employees at fixed facilities, but is problematic for 
transportation companies whose employees work in multiple 
States.
    ATA and Con-way are concerned about employee safety, and 
support a compromised solution to ensure uniform regulations 
while preserving OSHA's role in addressing potential unsafe 
conditions for employees.
    To implement the solution, Congress should, one, eliminate 
the overlap in jurisdiction; two, require the Secretary of 
Labor to identify any gaps in the HAZMAT regulations that 
create an unsafe condition for employees; and, three, require 
the Secretary of Transportation to address these unsafe 
conditions.
    Our second recommendation, enact a uniform permitting 
program. Currently, individual States have imposed more than 40 
separate HAZMAT permitting programs. Compliance with these 
separate programs is an enormous administrative burden. ATA 
supports the implementation of the uniform program currently 
administered by seven States. The uniform program is a base 
State program that ensures participating States will continue 
to receive the revenue that they have come to rely upon under 
their individual permitting programs.
    The implementation of the uniform program would reduce 
State expenses, as the administrative functions would be shared 
by all participating States. It would also reduce the 
administrative burden on the regulated industries.
    The third recommendation, ensure equitable enforcement of 
the hazardous materials regulations. Today the HAZMAT 
regulations consist of more than 500 pages of complex 
regulatory text. Our company, Con-way, has a comprehensive 
driver training program. We spend more than $700,000 training 
our HAZMAT employees annually to operate in compliance with the 
rules.
    However, we will never be able to train our drivers to 
catch every mistake made by our customers. Primary compliance 
with the hazardous material regulations rest with the shipper, 
who must properly classify material, select an appropriate 
packaging, mark and label the package, and prepare a compliant 
HAZMAT shipping paper. Each of these pre-transportation 
activities occurs before the carrier arrives to load HAZMAT 
packages on the truck.
    Since most HAZMAT enforcement occurs during roadside 
inspections, the responsible party may not be present. It is 
not fair to fine a carrier for transporting HAZMAT where a 
shipper neither labels the package nor presents a HAZMAT 
shipping paper to the carrier prior to transportation. A driver 
cannot be expected to catch shippers that intentionally hide 
the transportation of HAZMAT.
    Likewise, where a shipper omits certain required 
information on a shipping paper, it is not realistic to expect 
the truck driver to research the chemical and catch the 
shipper's mistake at the dock. Carriers must remain responsible 
for the correct performance of the HAZMAT function under their 
control, but they cannot be expected to correct shippers' 
mistakes in the performance of pre-transportation functions.
    Congress should ensure that carriers are not held 
responsible for violations of pre-transportation functions that 
are performed by a shipper unless the carrier has actual 
knowledge of the violation.
    Thank you for allowing me to testify. I would be pleased to 
answer any questions you and the other Members of the 
Subcommittee may have.
    Mr. Hare. Thank you very much. Our next person to testify 
is Mr. Byrd.
    Mr. Byrd. Thank you. Good afternoon. My name is Lamont 
Byrd, and I am Director of Safety and Health at the 
International Brotherhood of Teamsters. I would like to thank 
Chairwoman Brown and Ranking Member Shuster for the opportunity 
to comment here today on the reauthorization of the DOT's 
HAZMAT Safety Program.
    The Teamsters Union represents approximately 300,000 
workers in the United States who handle and transport HAZMAT. 
Today I will briefly comment on training for HAZMAT workers, 
OSHA jurisdiction, and the HAZMAT endorsement in criminal 
background checks.
    It is critical that HAZMAT workers be provided with 
comprehensive worker safety and security training to enable 
these workers to protect themselves from the hazards that are 
inherent in handling and transporting HAZMAT. The Teamsters 
Union provides HAZMAT training to our members and other workers 
through a program that is funded by grants from the DOT 
Pipeline and HAZMAT Safety Administration, the National 
Institute of Environmental Health Sciences, and through 
collective bargaining with our employers. The DOT grant is 
funded at $1.6 million for 1 year to conduct the HAZMAT 
instructor training program.
    To successfully complete our program, students must create 
a prerequisite 8-hour HAZMAT course, a 40-hour Train the 
Trainer course, and teach at least one 8-hour HAZMAT course 
while being monitored and evaluated by program staff. We will 
train at least 345 instructors and 814 rank and file HAZMAT 
employees by the end of the grant year.
    We have received very positive feedback from our students 
who participated in the program and from employers who audited 
the course. We strongly recommend that the program be continued 
and that it be expanded to allow more training of rank and file 
HAZMAT workers.
    With respect to OSHA jurisdiction, the union is aware of 
previous and current industry efforts to eliminate OSHA's 
authority to protect HAZMAT transportation workers. This is an 
extremely important issue to the union, and we recommend that 
any attempts to eliminate or weaken OSHA's authority be 
rejected. The union has had several experiences working with 
OSHA on HAZMAT transportation-related issues, and we feel like 
the agency has appropriately addressed the issues. Hazards were 
abated, and employees were protected. We would like for this to 
continue.
    Since the implementation of the requirements of the PATRIOT 
Act, all Teamster members who drive in the LTL sector of the 
trucking industry must have the HAZMAT endorsement on their 
CDL. Although most of our members have not reported any 
problems with obtaining their HAZMAT endorsement or getting 
through the background check process, we remain concerned about 
the disqualifying offenses being better defined to include only 
those that have a consistent and direct link to national 
security. We recommend the appointment of a task force to 
review the list of disqualifying crimes to determine if they 
are accurate indicators of a terrorism security risk.
    Every effort should be made to eliminate duplicative 
background checks. There are cases where port drivers must 
obtain up to five separate security cards, plus the TWIC, to 
access individual ports. These cards cost the drivers hundreds 
of dollars that they cannot afford. And in the ports, until a 
sufficient number of card readers are in place, the TWIC is no 
better than a CDL in establishing identity or enhancing 
security.
    Then there is a the issue of the CDL equivalency. The U.S. 
and Mexico signed an MOU in the early 1990s recognizing the 
Mexican truck driver's license as equivalent to the U.S. CDL. 
However, the Motor Carrier Safety Improvement Act of 1999 
changed the CDL program, making serious violations occurring in 
a driver's personal vehicle, including DUIs, count against the 
CDL record. There is no similar treatment of Mexican truck 
drivers. In addition, we still don't know what the medical 
fitness standards are with respect to Mexican truck drivers.
    Then finally, with respect to criminal history, drivers in 
Mexico would undergo checks of their criminal history while in 
the United States but not checks of their criminal history in 
Mexico. It in no way can be construed as undergoing similar 
background checks as required by statute. Until the Mexican 
Government can ensure that it has documented that its drivers 
have not committed offenses in Mexico that would disqualify 
them from hauling HAZMAT in the U.S. those loads should be 
handed off to U.S. drivers who meet the background check 
requirements.
    We commend the Committee's concerns about the safety and 
security of the public and HAZMAT workers. Enhancing the 
Federal HAZMAT laws and reauthorizing the DOT's HAZMAT Safety 
Program are important steps that this Congress can take, and we 
look forward to working with you.
    I am happy to answer any questions that you may have.
    Mr. Hare. Thank you, Mr. Byrd. Dr. Donaldson, welcome to 
the Committee, and we look forward to your testimony.
    Mr. Donaldson. Good afternoon. My name is Gerald Donaldson. 
I am the Senior Research Director of Advocates for Highway and 
Auto Safety. Advocates is grateful for the opportunity to 
assist the Subcommittee today in its inquiry into the safety 
and security of hazardous materials transported throughout the 
U.S. by highway as you consider reauthorization of the U.S. 
Department of Transportation's HAZMAT safety programs.
    U.S. HAZMAT highway transportation is not appropriately 
safe and secure. Although Congress wisely anticipated the need 
for more stringent regulation of HAZMAT carried by motor 
vehicle, statutory requirements and Congressional intent have 
not been fulfilled. When Congress reauthorized HAZMAT 
transportation safety legislation in 1990, the bill directed 
agencies of jurisdiction to tighten permitting practices, 
achieve uniformity between interstate and intrastate HAZMAT 
transportation, and improve the oversight and enforcement of 
HAZMAT transported by motor vehicle. However, the agencies 
primarily responsible for setting standards for HAZMAT 
transportation safety and security, FMCSA and PHMSA, have not 
created and implemented sufficiently tight systems of HAZMAT 
safety and security that fully comply with Congressional 
direction.
    Instead, the agencies have chosen mostly a "business as 
usual" approach to key HAZMAT regulations over the past several 
years. Pivotally important regulations controlling the issuance 
of Federal permits and the creation and implementation of 
HAZMAT security plans for highway transportation of certain 
dangerous HAZMAT have been adopted that are too weak and not 
comprehensive. The warning lodged by the Government 
Accountability Office in a major 2003 report on national 
transportation security stressed the need for a coordinated and 
comprehensive approach to the laws, regulations, oversight and 
enforcement practices that should reduce the high vulnerability 
of surface transportation through disruption and interdiction 
for illicit uses. However, that timely warning of GAO has gone 
largely unheeded.
    To respond to these overdue needs to tighten HAZMAT law and 
regulation, Advocates recommends major changes in national 
highway HAZMAT transportation policies that we ask Congress to 
consider. These include:
    Mandating electronic onboard recorders and event data 
recorders on all HAZMAT motor carriers, particularly 
transporting HAZMAT subject to security plans and the 23 United 
States Code section 5109 safety permits. This will improve real 
time oversight of the commercial driver and that driver's hours 
of service, where the HAZMAT vehicle is at any given time, and 
provide crucial data about vehicle dynamics prior to a crash or 
HAZMAT incident.
    Requiring untethered HAZMAT tracking technologies, 
requiring specific security plan criteria to be adopted and 
implemented by PHMSA, and carrier submitted security plans to 
be reviewed, approved and stored by PHMSA for oversight 
purposes.
    Requiring expansion of the types and quantities of material 
subject to the HAZMAT regulations for security plans, and 
Section 5109 safety permits.
    Directing PHMSA and FHWA and FMCSA to lower the quantities 
of all types of HAZMAT currently permitted to be transported 
without placarding.
    Directing PHMSA and FMCSA to conform intrastate 
transportation of HAZMAT for the Federal laws and regulations 
governing HAZMAT transportation, including special permit 
HAZMAT.
    Eliminating special exemptions that can be used to threaten 
the safety and security to U.S. people and their institutions.
    Requiring appropriately adapted commercial motor vehicle 
safety alliance Level 6 pre-trip inspections of all motor 
vehicles transporting Section 5109 special safety permit and 
PHMSA security plan HAZMAT both in intrastate and interstate 
commerce.
    These are the bare minimum to ensure the improved safety of 
the U.S. people and their institutions to reduce the chances 
that unscrupulous individuals and organizations will not use 
dangerous lethal materials against us.
    Advocates deeply appreciates the invitation to testify, and 
we are ready to respond to any question you may have and 
provide any additional information. Thank you.
    Mr. Hare. Doctor, thank you very much. Ms. Hilton, you are 
recognized for your testimony. Welcome.
    Ms. Hilton. Acting Chairman Hare, is that right, and 
Ranking Member Shuster, I appreciate the opportunity to appear 
today. I am Cynthia Hilton, Executive Vice President of the 
Institute of Makers of Explosives and a Co-Facilitator of the 
Interested Parties for Hazardous Materials Transportation, a 
coalition of HAZMAT-related associations. I have been asked to 
present a shipper's view on HMTA reauthorization.
    The shipper community is extremely diverse, from the 
products we produce, to the markets and customers we serve, to 
the size and reach of individual companies. Our society 
benefits from hazardous materials which make our lives better, 
healthier, and more productive. Shippers provide jobs and 
contribute positively to the U.S. balance of trade.
    The purpose of the HMTA is to protect against harm when 
HAZMAT is transported. These materials may not be transported 
by any mode without specific DOT authorization. This requires a 
close relationship with the regulated community. The 
relationship is based on Congress's statement that HAZMAT 
transportation is necessary to maintain economic vitality, meet 
consumer demands and be conducted in a safe, secure, and 
efficient manner. Thus, the HMTA exists to facilitate, not 
frustrate this commerce by balancing these objectives.
    The success of this approach is seen in the relatively low 
number of HAZMAT incidents, despite billions of tons 
transported each year. Yet some find any incident unacceptable. 
While we learn from incidents and strive to be more vigilant, 
the goal of the HMTA is not zero risk, but to manage risk. This 
risk-based approach relies on performance standards which can 
accommodate the innumerable variations in HAZMAT shipments.
    Under its statutory authority, PHMSA considers the amount 
and form of a material that may pose unreasonable risk to 
health safety and property. Additionally, HAZMAT is transported 
by all modes, and any one shipment will often travel by 
multiple modes. Intermodal transportation demands a ``One DOT'' 
approach. If HAZMAT regulation is not modally harmonized, risk 
may simply shift from mode to mode.
    Finally, the HMTA provides authority to manage risk by 
ensuring that HAZMAT shipments are not frustrated at 
jurisdictional boundaries. Again, the best way to share the 
risks and benefits of HAZMAT transportation is to ensure that 
the rules are harmonized nationally and worldwide.
    The interested parties have suggestions to improve the HMTA 
which I will submit for the record. Now let me address those of 
most interests to shippers.
    HAZMAT transportation requires uniform Federal regulation 
to protect the public, facilitate compliance, and provide for 
efficient movement of these materials, and these important 
purposes should be stated in Section 5125.
    Congress should continue to strengthen DOT's ability to 
ensure uniform HAZMAT rules by allowing DOT to use an internal 
consistency test when evaluating applications for preemption 
determinations, a standard DOT already uses when it considers 
preemption waivers.
    The system of close regulation envisioned by the HMTA must 
be comprehensive. Regulatory gaps introduce undue risk and 
overlaps impose unnecessary burdens. We recommend closing a gap 
by adding loading, unloading, and storage incident to movement 
to DOT's regulatory authority.
    Also, Congress should require rulemaking to address the 
consequences that can result from human error and equipment 
failures when noncarrier personnel load, unload, or store bulk 
packages. The NTSB, as you heard earlier, and the Chemical 
Safety Board have recommended enhanced DOT safety standards in 
these areas.
    In 1990, OSHA found itself with authority over HAZMAT 
transportation which is duplicative of DOT's. Regrettably, 
OSHA's HAZMAT rules are out of date. If enforced, they would 
put workers and the public in harm's way. In contrast, DOT 
consistently refreshes HAZMAT rules to cover new products and 
evolving international requirements.
    The HMTA provides DOT with new authority to search, open, 
and remove HAZMAT packages from transportation. This authority 
should be implemented only under the following three 
conditions:
     - It should be limited to packages believed to contain 
undeclared HAZMAT as Congress intended.
     - DOT should indemnify and hold harmless those who are 
injured when these packages are opened or handled or whose 
packages are damaged or destroyed but found to be in regulatory 
compliance.
     - Congress should ensure that these rules address delay of 
time-sensitive materials, training and equipment for 
inspectors, and restoration or disposal of open packages.
     - The safety of the public, those engaged in HAZMAT 
transportation, and enforcement officials depend on these 
protections.
    Finally, Congress should reaffirm its longstanding 
commitment to the intermodal and international role FMCSA 
carries out to ensure the safe, secure, and efficient 
transportation of HAZMAT at home and abroad.
    In conclusion, shippers support the closely regulated 
environment envisioned under the HMTA because it is proven to 
be the most efficient way to move HAZMAT safely and securely.
    I would be happy to answer any questions. Thank you.
    Mr. Hare. Thank you, Ms. Hilton. I know you have been here 
a long time, so I am going to kind of keep my questions short.
    Ms. Harman, if I heard you correctly you said that only 29 
percent of firefighters are trained.
    Ms. Harman. Correct. If you review the National Fire 
Protection Association's needs, the second needs assessment 
that they have done in the Fire Service, those are statistics 
that are pulled directly from that report.
    Mr. Hare. So you suggested that the 28 million that was 
provided through the hazardous materials emergency preparedness 
programs grants for the States and local governments was 
insufficient to meet the training needs. What would be 
sufficient? What level of funding would make this, you know, 
more sufficient for you?
    Ms. Harman. I don't know if I am in the correct place to 
give you an exact dollar figure, and I don't think I can speak 
on behalf of State and localities. I can speak on behalf of the 
IAFF training programs, of which we have an enormous request 
and demand for, particularly when we had more responders out 
there prior to this economic crisis that we are in. The problem 
that we are in now is that we have firefighters and other first 
responders in need of training.
    Unfortunately, the first budget line to get cut is 
traditionally training. So we have firefighters out there who 
may or may not have been trained at the operations level early 
on, and will most likely not get the refresher training that 
they need because we are right now unable to meet the demand of 
either fulfilling the training requests or providing any 
backfill or overtime monies that they may need.
    Mr. Hare. Thank you. Mr. Byrd, just a couple of questions 
for you.
    As I understand it, the Teamsters International was awarded 
a $1.6 million grant from FMCSA to train hazardous materials 
employees. Can you describe how the Teamsters utilized that 
grant?
    Mr. Byrd. Yes. The grant is actually HAZMAT Instructor 
Training Program. We use this funding to recruit potential 
candidates to participate in our training program. We also use 
the funding to provide comprehensive training to the 
individuals that participate, and this training could involve 
have an 8-hour prerequisite HAZMAT course. There is a 40-hour 
Train the Trainer, and then, as part of the Train the Trainer 
Program, there is a practical component where the new 
instructor, after going through the Train the Trainer, then has 
to conduct an 8-hour training course, a HAZMAT training course, 
while being evaluated by one of our program staff.
    We also use the funding to do evaluation of the performance 
of our master trainers and the instructors that, new 
instructors that have come through our program.
    Mr. Hare. What is the difference between the type of 
training that you provide and the type of training that 
employers typically provide?
    Mr. Byrd. Well, as we have talked with our HAZMAT employee 
members, they have indicated that the training that they 
receive from employers typically is along the lines of 
receiving handout materials that they can review on their own 
or watching a short video with very minimal, if any, 
opportunity for question and answers. The training that we 
provide is not the awareness level training that the employers 
provide. It is a more intense, 50, totaling 56 hours of 
training that provides the trainees with a greater, much 
greater depth of knowledge with respect to HAZMAT issues.
    Mr. Hare. And my last question to you, Mr. Byrd, and I will 
try to keep it short. The Teamsters have registered their 
strong support for OSHA to have authority over working 
conditions for workers who load, unload, and handle hazardous 
materials. If the authority of OSHA to protect these workers 
was eliminated, in your opinion, what would be the 
repercussions to the workers and to the public?
    Mr. Byrd. Well, I think we would see a decline in the 
health and safety of the HAZMAT employees. You know, one 
reason, if that authority was eliminated, you know, although 
the DOT may have some type of safety regulations, the 
preemption requirement or the preemption language under the act 
does not require that the training or the programs or the rules 
be equivalent, just that they exist. So we would think that 
there would be a diminishing of safety and health.
    Then there are the other issues that are associated. Should 
a HAZMAT incident occur, the OSHA rules clearly explain what 
actions, or require that a process be developed that dictate 
the actions that workers have to take. If there were injuries, 
then there are reporting requirements. If injuries occur or if 
exposures occur, then there are access-to-information 
requirements that apply. We don't see those same type of 
requirements under the DOT regulatory regime.
    Mr. Hare. Thank you, Mr. Byrd.
    Mr. Shuster.
    Mr. Shuster. Thank you very much. Mr. Rogers, your 
testimony today talked about doing an outright ban of lithium 
batteries. Is there anything short of an outright, I mean, you 
didn't say, I mean I can carry this on, I can wear my watch on 
the plane, but I mean the bulk shipments I guess is more 
accurate of what you had said. Is there anything we can do 
short of an outright ban to be able to make it safe, in your 
mind, to be able to ship batteries?
    Mr. Rogers. Well, yes, and to clarify, what I am talking 
about are lithium metal batteries which are not what you see in 
your cell phone or your laptop computer. These are the 
nonrechargeable small batteries that have been shown to be 
completely unresponsive to halon, and they are currently banned 
on passenger aircraft right now. So we are asking that that be 
extended to cargo aircraft until adequate packaging standards 
are developed. That adequate packaging may include----
    Mr. Shuster. The kind in my watch, it is not rechargeable.
    Mr. Rogers. Right, but bigger ones. And you can get them 
bigger sizes and so forth. And we are not asking for a ban on 
batteries in equipment. So if you were to ship the watch or 
anything, a flashlight or a camera that had the battery, that 
would also not be affected. We are looking for large quantities 
of these batteries being shipped together not being put on 
cargo aircraft, like they are not put on passenger aircraft 
today, until the packaging is appropriate. And that may include 
metal packaging. It may include something else. But testing 
needs to be done to make sure that the safety of the aircraft 
and its occupants is protected.
    Mr. Shuster. Right. And I guess, and I have no idea and I 
don't know if you do, what the impact or the repercussions 
would be to commerce if you stopped those types of shipments. I 
don't know how big it is or how small it is, the impact on 
commerce.
    Mr. Rogers. Less than 2 percent of dangerous goods 
transported is by air, and most of these batteries aren't going 
on aircraft as it is already. So I can't speak to the 
industry's exact input. I don't work for the industry. However, 
you know, we look at a very small percentage that actually goes 
by air because it is very expensive to ship these by air. And 
we feel that the safety implications of preventing an 
uncontrollable fire on the aircraft is sufficient justification 
for that move.
    Mr. Shuster. Thank you very much.
    Mr. Byrd, in your testimony you talked about duplication of 
background checks. I think one thing when we were having a 
national transportation system trying to streamline things, I 
think reducing duplication and extra work on things like this 
makes a lot of sense. But are you, in the background check, 
would you eliminate the hazardous materials endorsement on a 
CDL driver's license?
    Mr. Byrd. No, I wouldn't. Our concern, examples that we 
have gotten from drivers that we have talked to is that, you 
know, if they--for example, port drivers--if they have to 
service or deliver to multiple ports, many of these ports have 
their own security clearance card and they have to buy those 
cards or they have to pay for the background check to get that 
card in addition to getting the TWIC. That is our real concern, 
not the background check, as it relates to the HAZMAT 
endorsement.
    Mr. Shuster. Would the Teamsters endorse the idea of a 
Transportation Worker's Identification Card that would cover 
all transportation workers? Is that something that you would 
support?
    Mr. Byrd. Well, we haven't--I haven't been involved in any 
very detailed, you know, discussions about that particular 
issue, but I think it would certainly be an issue we could 
seriously entertain.
    Mr. Shuster. Okay. Thank you very much.
    Mr. Petrancosta, your testimony indicated that truck 
drivers receiving tickets and violations, and I think we heard 
it somewhere else today from somebody, that the companies that 
are, the transport companies are the ones that are getting the 
fines and of course it is probably impacting your insurance 
rates and things like that when you get those kinds of fines. 
And how common is this problem throughout the industry?
    Mr. Petrancosta. Mr. Shuster, ATA developed a report that 
indicates that at least 13 percent and maybe as much as 45 
percent of all fines issued to motor carriers would result from 
noncompliant activities performed by the shipper.
    I would be more than happy, Madam Chair, to submit as a 
record the report.
    Mr. Hare. Without objection.
    Mr. Shuster. Hazardous materials are transported by all the 
modes. Is it your belief that to have the Department of 
Transportation have one approach to regulate HAZMAT, is that 
something you believe is an appropriate model?
    Mr. Petrancosta. Well, it is particularly unfair for 
drivers to be fined for conditions that are beyond their 
control. It affects not only their safety record, but obviously 
it can also cost them some money. And it is equally unfair for 
citing the driver or the carrier because it doesn't really 
address the issue. The responsible party is not held 
accountable in this case. And so what we recommend is that 
there needs to be a requirement for States to furnish data to 
the Pipeline Hazardous Materials Safety Administration and 
FMCSA so that the Federal Government may pursue noncompliant 
shippers that are located out of State.
    Mr. Shuster. Thank you for that answer. I want to thank all 
of you for being here today. And I just want to reiterate, I 
see my time has expired but I want to reiterate that the 
transportation of hazardous materials has had a remarkably safe 
record, and I want to make sure as we move forward in this 
reauthorization we don't create a lot of problems. I certainly 
want to try to find some solutions to these situations that are 
occurring, but I want to make sure that we continue in a 
positive way, encouraging the safety record to get even better, 
but not to say things and put laws in place that I think would 
have a detrimental effect on the commerce and on the economy of 
this country.
    So again, thank you all for your time here today, and I 
yield back.
    Mr. Hare. I am pleased to recognize the Chair of the 
Subcommittee, Ms. Brown.
    Ms. Brown of Florida. Thank you. And thank you, Mr. 
Shuster. I know that you will make sure that we have balance on 
this Committee.
    I have a couple of questions. Ms. Harman, you mentioned 
that the firefighters receive an annual grant to train 
instructors to deliver hazardous training to emergency 
responders nationwide. Can you describe in more detail how you 
administer this grant? And you have asked the Committee to 
consider a proposal to allow you to use this grant to train 
rank and file firefighters, not just instructors. How would 
this help get more firefighters trained, given, you know, we 
have some limited budget?
    Ms. Harman. Thank you, and that is an excellent question. 
The IFF HAZMAT and WMD Training Department has been federally 
funded for the past 22 years from a variety of Federal sources, 
including Department of Transportation, and we were fortunate 
to work closely with DOT about a year and a half ago to 
increase funding that would strengthen our existing Train the 
Trainer Program. We moved from a training program of $250,000 a 
year that trained solely, you know, instructors, delivered 
Train the Trainers. That money did not afford us an opportunity 
to go back and provide additional support for those 
instructors. Some of the instructors never reported back to us 
as far as what they were doing. Sometimes there is not a whole 
lot of incentive for them to report back to us. They sort of 
get the information and go.
    So with the increase that we were able to receive, so far 
we have been able to expand the program not only in the 
delivery of the number of Train the Trainers, but also we have 
been able to provide supportive training sessions for them and 
go out and co-teach with them twice. Unfortunately, as I 
mentioned earlier, with the state of the economics or economy 
the way it is right now, we don't have anybody knocking on the 
door for I want to be an instructor. They need that direct 
training. We want to be very careful that when we are 
delivering training, particularly in some rural areas that lack 
the outside experiences from those in larger metropolitan 
areas, that we don't go in and deliver a Train the Trainer 
Program and say, here you go, out the door, and they are left 
with great training materials but a lot of self-interpretation 
through that delivery and possibly lack of experience handling 
hazardous materials in those smaller areas.
    So for us, the demand for direct training, direct delivery, 
where I can provide an instructor, a certified instructor, who 
is also a hazardous materials responder who is very passionate 
about what they do, who has a focus on health and safety, we 
train responders on the equipment that they are expected to use 
in the field. We do not provide equipment. Sometimes that is 
all the bells and whistles, great equipment; sometimes it is 
not so much. And in those cases we focus on what their 
limitations are and how they can leverage that to their 
advantage in the field.
    So the opportunity to deliver direct training, provide 
someone from a large metropolitan area, again, very passionate 
about safety, very passionate about teaching instructors, very 
passionate about teaching other firefighters, whether they are 
career or volunteer in large or small areas, the experience 
they bring into that classroom is very invaluable. We have 
shown to have a cost effective training program through both 
internal and external audits, and I just think it is a greater 
bang for the buck to do direct delivery from the student's 
perspective.
    Ms. Brown of Florida. Okay. Thank you. Mr. Byrd, and I 
think I want Mr. Petrancosta and Ms. Hilton to respond to this 
question also. Since 9/11 it has been a major as far as the 
TWIC card and the problems that we have experienced. We had a 
hearing in Homeland Security because we have had some truck 
drivers who have maybe been driving for 20 years and they were 
denied, you know, their cards. And given that we are in a 
different kind of climate, can you explain how we could improve 
the program but still have the security there?
    You know, in Florida, we have 14 ports, and I think you 
have to have a different card for each port.
    Mr. Byrd. Well, I would think that a first step would be to 
have a uniform card and uniform card reader at each of these 
facilities. I think that that----
    Ms. Brown of Florida. It is a different fee you know every 
time you get the card.
    Mr. Byrd. I understand. And that has been one of the 
complaints that the drivers we have talked with have. But we 
think that the ports could then have a uniform system also, 
that the card reader, if the card reader were there, then the 
TWIC should suffice in terms of providing the necessary 
security measures. I would think that that would be one 
important step there.
    Mr. Petrancosta. ATA really continues to lobby Congress to 
enact meaningful reforms, such as Representative Lungren's Safe 
Trucker Act, which would require DHS to identify a list of 
security sensitive materials, to require drivers to posses one 
card, a TWIC card. And the drivers transporting hazardous 
materials that did not possess or pose a significant security 
risk would undergo a less costly and burdensome name-based 
check to renew their hazardous material endorsement.
    Ms. Brown of Florida. Okay. Ms. Hilton.
    Ms. Hilton. This is one of the most important areas of 
reform that Congress should look at. It is ridiculous that this 
one department has upwards of, seven or so, and more on the 
horizon, background checks which are all, as Mr. Byrd noted, 
based on the same disqualifications. So there is no value added 
to security by requiring people to get these divergent cards.
    I suppose I can't blame it on DHS, since Congress, in your 
wisdom, has asked the Department to undertake these different 
card check programs. But among the many things to improve the 
current situation would be: To create a list of security 
sensitive materials. The current list of materials that 
triggers a background check is much broader than it needs to be 
now. To re-look at the disqualifications, to ask whether or not 
it is really focused on terrorists or just, I call it, the 
walk-on-water test.
    There is legislation, as you pointed out, which is moving 
that will remove one of those many credentials from the table 
and substitute it for a TWIC card. However, there are still a 
number of other cards that are out there, and because the 
disqualifications - the core disqualifications - are the same 
across the board, what is wrong with some reciprocal 
recognition between the cards, especially in the absence of a 
card reader?
    So there are many, many reforms that could happen to put 
more sense into security credentialing programs and practices. 
The interested parties' recommendations talk about a number of 
these.
    Thank you.
    Ms. Brown of Florida. Thank you. Chief Johnson, in your 
testimony, you recommended that the first responders be trained 
at the OSHA, the National Fire Protection Association operation 
level standards. Please elaborate on how receiving operational 
level training versus awareness level training would better 
prepare first responders for the multitude of hazardous 
incidents.
    Chief Johnson. Thank you, Madam Chairman. The awareness 
level is intended for people that come across an incident and 
then know what to do with it. And the operations level is how 
you keep that in check while you wait for technicians to 
arrive. And the more people that are first responders that are 
trained to the operations level, the more likely you will make 
good decisions about when to evacuate, how far to evacuate and 
what proper actions you take as you await people that will 
actually mitigate the event. It actually enhances the efficacy 
of a hazardous materials event to make some of those good 
decisions early so that you don't under manage it and don't 
over manage it, because there is true cost and true disruption 
that goes along with the decision on either side of that.
    Thank you.
    Ms. Brown of Florida. One of the things in a hearing that I 
had in the field, one of the problems, and we went to an area 
where an incident had taken place. And it is not a lot of 
communication between the hazardous material that is going 
through the community, and let's say the firefighters. How can 
we better develop that communication system?
    Chief Johnson. Excellent question, Madam Chairman. It is 
really kind of a paradox of having too much information that 
flows to the HAZMAT team about every shipment that is something 
that is broadly classified as a hazardous material, and what 
products that are there that you need to know about that is a 
meaningful exception, and that may alter your response.
    I can't craft that line for you today. I would say, 
however, that as the discussion goes on about maybe an 
electronic solution to that, that my urging would be that we 
are careful about implementing an electronic solution to that 
because this Nation does not have a nationwide plan for an 
interoperable communication system for public safety 
responders. We don't have that today. And because we don't have 
that, we don't have a reliable platform within which this kind 
of information could be transported.
    So that would leave us with broadband data system and 
cellular networks today. Those are largely unpredictable and 
unreliable to the extent public safety would require, and there 
is a lot of America that doesn't have a robust broadband system 
or even cellular networks. So I would just urge our care as we 
move forward with that.
    Ms. Brown of Florida. I do think that one of the major 
problems that we are having is with the communications because 
when we had Katrina, you know, the people could not communicate 
outside the area. So that is a major problem. 9/11, when the 
firefighters were going into the building, we couldn't 
communicate.
    I went to Normandy. One of the problems where so many 
people got killed was that they couldn't communicate with the 
people that was coming in. So communication is something I 
think we need to move forward in helping to develop the kind of 
communication system so that we can communicate during these 
times.
    Chief Johnson. Madam Chairman, excellent observation. To 
reflect on Normandy for a minute, when General Eisenhower 
returned from World War II and became President of the United 
States, he noted that one thing that Germany had done well was 
to build a national transportation system. That led to the 
Eisenhower Freeway Transportation System in this country.
    What we haven't done in the United States is to take the 
bold step of articulating an Eisenhower-like plan for our 
public safety communication system. If you build, if you lay 
forth a model that says this is what our wireless interstate 
will look like, then cities, counties, and districts can build 
to that system with their own system, and the Federal 
Government can inventory our system and use that to create a 
national system. In my opinion, that is primary to any 
communication system that responders can rely on.
    Ms. Brown of Florida. You are so correct, Chief Johnson.
    Chief Johnson. Thank you.
    Ms. Brown of Florida. And to mention the Eisenhower 50 
years ago, I just returned from Europe, and we are the caboose 
now. And they don't even use them because he came and we 
developed this great highway system, but we didn't put the 
other systems in place, and you are right that we need to think 
in our Committee on Transportation and Infrastructure how we 
can move forward with the communications. Because after the 
hearing in Katrina, when we had hearings from Members and 
others that came in, the major flaw was communications.
    Chief Johnson. Yes, Madam Chairman. You couldn't be more 
correct. It will continue to be one of the top three things in 
every major event gone wrong. You can take that to the bank. I 
have spent 31 years watching it be one of the top three in 
every one for 31 years, and until we fix it, it is likely to 
remain there.
    Ms. Brown of Florida. I yield back the balance of my time.
    Mr. Hare. Thank you, Madam Chairman. Thank you for giving 
me the opportunity to sit in the Chair. I hope I didn't mess 
you up too bad. I want to thank all the witnesses for their 
testimony and for the Members that were here today and had 
questions.
    Again, the Members of this Subcommittee may have additional 
questions for the witnesses, and we will ask you to respond to 
those in writing if you would be so kind. The hearing record 
will be held open for 14 days for Members wishing to make 
additional statements or to ask further questions.
    Unless there is further business, the Subcommittee is 
adjourned. Thank you again.
    [Whereupon, at 6:40 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T9952.014
    
    [GRAPHIC] [TIFF OMITTED] T9952.015
    
    [GRAPHIC] [TIFF OMITTED] T9952.016
    
    [GRAPHIC] [TIFF OMITTED] T9952.017
    
    [GRAPHIC] [TIFF OMITTED] T9952.018
    
    [GRAPHIC] [TIFF OMITTED] T9952.019
    
    [GRAPHIC] [TIFF OMITTED] T9952.020
    
    [GRAPHIC] [TIFF OMITTED] T9952.021
    
    [GRAPHIC] [TIFF OMITTED] T9952.022
    
    [GRAPHIC] [TIFF OMITTED] T9952.023
    
    [GRAPHIC] [TIFF OMITTED] T9952.024
    
    [GRAPHIC] [TIFF OMITTED] T9952.025
    
    [GRAPHIC] [TIFF OMITTED] T9952.026
    
    [GRAPHIC] [TIFF OMITTED] T9952.027
    
    [GRAPHIC] [TIFF OMITTED] T9952.028
    
    [GRAPHIC] [TIFF OMITTED] T9952.029
    
    [GRAPHIC] [TIFF OMITTED] T9952.030
    
    [GRAPHIC] [TIFF OMITTED] T9952.031
    
    [GRAPHIC] [TIFF OMITTED] T9952.032
    
    [GRAPHIC] [TIFF OMITTED] T9952.033
    
    [GRAPHIC] [TIFF OMITTED] T9952.034
    
    [GRAPHIC] [TIFF OMITTED] T9952.035
    
    [GRAPHIC] [TIFF OMITTED] T9952.036
    
    [GRAPHIC] [TIFF OMITTED] T9952.037
    
    [GRAPHIC] [TIFF OMITTED] T9952.038
    
    [GRAPHIC] [TIFF OMITTED] T9952.039
    
    [GRAPHIC] [TIFF OMITTED] T9952.040
    
    [GRAPHIC] [TIFF OMITTED] T9952.041
    
    [GRAPHIC] [TIFF OMITTED] T9952.042
    
    [GRAPHIC] [TIFF OMITTED] T9952.043
    
    [GRAPHIC] [TIFF OMITTED] T9952.044
    
    [GRAPHIC] [TIFF OMITTED] T9952.045
    
    [GRAPHIC] [TIFF OMITTED] T9952.046
    
    [GRAPHIC] [TIFF OMITTED] T9952.047
    
    [GRAPHIC] [TIFF OMITTED] T9952.048
    
    [GRAPHIC] [TIFF OMITTED] T9952.049
    
    [GRAPHIC] [TIFF OMITTED] T9952.050
    
    [GRAPHIC] [TIFF OMITTED] T9952.051
    
    [GRAPHIC] [TIFF OMITTED] T9952.052
    
    [GRAPHIC] [TIFF OMITTED] T9952.053
    
    [GRAPHIC] [TIFF OMITTED] T9952.054
    
    [GRAPHIC] [TIFF OMITTED] T9952.055
    
    [GRAPHIC] [TIFF OMITTED] T9952.056
    
    [GRAPHIC] [TIFF OMITTED] T9952.057
    
    [GRAPHIC] [TIFF OMITTED] T9952.058
    
    [GRAPHIC] [TIFF OMITTED] T9952.059
    
    [GRAPHIC] [TIFF OMITTED] T9952.060
    
    [GRAPHIC] [TIFF OMITTED] T9952.061
    
    [GRAPHIC] [TIFF OMITTED] T9952.062
    
    [GRAPHIC] [TIFF OMITTED] T9952.063
    
    [GRAPHIC] [TIFF OMITTED] T9952.064
    
    [GRAPHIC] [TIFF OMITTED] T9952.065
    
    [GRAPHIC] [TIFF OMITTED] T9952.066
    
    [GRAPHIC] [TIFF OMITTED] T9952.067
    
    [GRAPHIC] [TIFF OMITTED] T9952.068
    
    [GRAPHIC] [TIFF OMITTED] T9952.069
    
    [GRAPHIC] [TIFF OMITTED] T9952.070
    
    [GRAPHIC] [TIFF OMITTED] T9952.071
    
    [GRAPHIC] [TIFF OMITTED] T9952.072
    
    [GRAPHIC] [TIFF OMITTED] T9952.073
    
    [GRAPHIC] [TIFF OMITTED] T9952.074
    
    [GRAPHIC] [TIFF OMITTED] T9952.075
    
    [GRAPHIC] [TIFF OMITTED] T9952.076
    
    [GRAPHIC] [TIFF OMITTED] T9952.077
    
    [GRAPHIC] [TIFF OMITTED] T9952.078
    
    [GRAPHIC] [TIFF OMITTED] T9952.079
    
    [GRAPHIC] [TIFF OMITTED] T9952.080
    
    [GRAPHIC] [TIFF OMITTED] T9952.081
    
    [GRAPHIC] [TIFF OMITTED] T9952.082
    
    [GRAPHIC] [TIFF OMITTED] T9952.083
    
    [GRAPHIC] [TIFF OMITTED] T9952.084
    
    [GRAPHIC] [TIFF OMITTED] T9952.085
    
    [GRAPHIC] [TIFF OMITTED] T9952.086
    
    [GRAPHIC] [TIFF OMITTED] T9952.087
    
    [GRAPHIC] [TIFF OMITTED] T9952.088
    
    [GRAPHIC] [TIFF OMITTED] T9952.089
    
    [GRAPHIC] [TIFF OMITTED] T9952.090
    
    [GRAPHIC] [TIFF OMITTED] T9952.091
    
    [GRAPHIC] [TIFF OMITTED] T9952.092
    
    [GRAPHIC] [TIFF OMITTED] T9952.093
    
    [GRAPHIC] [TIFF OMITTED] T9952.094
    
    [GRAPHIC] [TIFF OMITTED] T9952.095
    
    [GRAPHIC] [TIFF OMITTED] T9952.096
    
    [GRAPHIC] [TIFF OMITTED] T9952.097
    
    [GRAPHIC] [TIFF OMITTED] T9952.098
    
    [GRAPHIC] [TIFF OMITTED] T9952.099
    
    [GRAPHIC] [TIFF OMITTED] T9952.100
    
    [GRAPHIC] [TIFF OMITTED] T9952.101
    
    [GRAPHIC] [TIFF OMITTED] T9952.102
    
    [GRAPHIC] [TIFF OMITTED] T9952.103
    
    [GRAPHIC] [TIFF OMITTED] T9952.104
    
    [GRAPHIC] [TIFF OMITTED] T9952.105
    
    [GRAPHIC] [TIFF OMITTED] T9952.106
    
    [GRAPHIC] [TIFF OMITTED] T9952.107
    
    [GRAPHIC] [TIFF OMITTED] T9952.108
    
    [GRAPHIC] [TIFF OMITTED] T9952.109
    
    [GRAPHIC] [TIFF OMITTED] T9952.110
    
    [GRAPHIC] [TIFF OMITTED] T9952.111
    
    [GRAPHIC] [TIFF OMITTED] T9952.112
    
    [GRAPHIC] [TIFF OMITTED] T9952.113
    
    [GRAPHIC] [TIFF OMITTED] T9952.114
    
    [GRAPHIC] [TIFF OMITTED] T9952.115
    
    [GRAPHIC] [TIFF OMITTED] T9952.116
    
    [GRAPHIC] [TIFF OMITTED] T9952.117
    
    [GRAPHIC] [TIFF OMITTED] T9952.118
    
    [GRAPHIC] [TIFF OMITTED] T9952.119
    
    [GRAPHIC] [TIFF OMITTED] T9952.120
    
    [GRAPHIC] [TIFF OMITTED] T9952.121
    
    [GRAPHIC] [TIFF OMITTED] T9952.122
    
    [GRAPHIC] [TIFF OMITTED] T9952.123
    
    [GRAPHIC] [TIFF OMITTED] T9952.124
    
    [GRAPHIC] [TIFF OMITTED] T9952.125
    
    [GRAPHIC] [TIFF OMITTED] T9952.126
    
    [GRAPHIC] [TIFF OMITTED] T9952.127
    
    [GRAPHIC] [TIFF OMITTED] T9952.128
    
    [GRAPHIC] [TIFF OMITTED] T9952.129
    
    [GRAPHIC] [TIFF OMITTED] T9952.130
    
    [GRAPHIC] [TIFF OMITTED] T9952.131
    
    [GRAPHIC] [TIFF OMITTED] T9952.132
    
    [GRAPHIC] [TIFF OMITTED] T9952.133
    
    [GRAPHIC] [TIFF OMITTED] T9952.134
    
    [GRAPHIC] [TIFF OMITTED] T9952.135
    
    [GRAPHIC] [TIFF OMITTED] T9952.136
    
    [GRAPHIC] [TIFF OMITTED] T9952.137
    
    [GRAPHIC] [TIFF OMITTED] T9952.138
    
    [GRAPHIC] [TIFF OMITTED] T9952.139
    
    [GRAPHIC] [TIFF OMITTED] T9952.140
    
    [GRAPHIC] [TIFF OMITTED] T9952.141
    
    [GRAPHIC] [TIFF OMITTED] T9952.142
    
    [GRAPHIC] [TIFF OMITTED] T9952.143
    
    [GRAPHIC] [TIFF OMITTED] T9952.144
    
    [GRAPHIC] [TIFF OMITTED] T9952.145
    
    [GRAPHIC] [TIFF OMITTED] T9952.146
    
    [GRAPHIC] [TIFF OMITTED] T9952.147
    
    [GRAPHIC] [TIFF OMITTED] T9952.148
    
    [GRAPHIC] [TIFF OMITTED] T9952.149
    
    [GRAPHIC] [TIFF OMITTED] T9952.150
    
    [GRAPHIC] [TIFF OMITTED] T9952.151
    
    [GRAPHIC] [TIFF OMITTED] T9952.152
    
    [GRAPHIC] [TIFF OMITTED] T9952.153
    
    [GRAPHIC] [TIFF OMITTED] T9952.154
    
    [GRAPHIC] [TIFF OMITTED] T9952.155
    
    [GRAPHIC] [TIFF OMITTED] T9952.156
    
    [GRAPHIC] [TIFF OMITTED] T9952.157
    
    [GRAPHIC] [TIFF OMITTED] T9952.158
    
    [GRAPHIC] [TIFF OMITTED] T9952.159
    
    [GRAPHIC] [TIFF OMITTED] T9952.160
    
    [GRAPHIC] [TIFF OMITTED] T9952.161
    
    [GRAPHIC] [TIFF OMITTED] T9952.162
    
    [GRAPHIC] [TIFF OMITTED] T9952.163
    
    [GRAPHIC] [TIFF OMITTED] T9952.164
    
    [GRAPHIC] [TIFF OMITTED] T9952.165
    
    [GRAPHIC] [TIFF OMITTED] T9952.166
    
    [GRAPHIC] [TIFF OMITTED] T9952.167
    
    [GRAPHIC] [TIFF OMITTED] T9952.168
    
    [GRAPHIC] [TIFF OMITTED] T9952.169
    
    [GRAPHIC] [TIFF OMITTED] T9952.170
    
    [GRAPHIC] [TIFF OMITTED] T9952.171
    
    [GRAPHIC] [TIFF OMITTED] T9952.172
    
    [GRAPHIC] [TIFF OMITTED] T9952.173
    
    [GRAPHIC] [TIFF OMITTED] T9952.174
    
    [GRAPHIC] [TIFF OMITTED] T9952.175
    
    [GRAPHIC] [TIFF OMITTED] T9952.176
    
    [GRAPHIC] [TIFF OMITTED] T9952.177
    
    [GRAPHIC] [TIFF OMITTED] T9952.178
    
    [GRAPHIC] [TIFF OMITTED] T9952.179
    
    [GRAPHIC] [TIFF OMITTED] T9952.180
    
    [GRAPHIC] [TIFF OMITTED] T9952.181
    
    [GRAPHIC] [TIFF OMITTED] T9952.182
    
    [GRAPHIC] [TIFF OMITTED] T9952.183
    
    [GRAPHIC] [TIFF OMITTED] T9952.184
    
    [GRAPHIC] [TIFF OMITTED] T9952.185
    
    [GRAPHIC] [TIFF OMITTED] T9952.186
    
    [GRAPHIC] [TIFF OMITTED] T9952.187
    
    [GRAPHIC] [TIFF OMITTED] T9952.188
    
    [GRAPHIC] [TIFF OMITTED] T9952.189
    
    [GRAPHIC] [TIFF OMITTED] T9952.190
    
    [GRAPHIC] [TIFF OMITTED] T9952.191
    
    [GRAPHIC] [TIFF OMITTED] T9952.192
    
    [GRAPHIC] [TIFF OMITTED] T9952.193
    
    [GRAPHIC] [TIFF OMITTED] T9952.194
    
    [GRAPHIC] [TIFF OMITTED] T9952.195
    
    [GRAPHIC] [TIFF OMITTED] T9952.196
    
    [GRAPHIC] [TIFF OMITTED] T9952.197
    
    [GRAPHIC] [TIFF OMITTED] T9952.198
    
    [GRAPHIC] [TIFF OMITTED] T9952.199
    
    [GRAPHIC] [TIFF OMITTED] T9952.200
    
    [GRAPHIC] [TIFF OMITTED] T9952.201
    
    [GRAPHIC] [TIFF OMITTED] T9952.202
    
    [GRAPHIC] [TIFF OMITTED] T9952.203
    
    [GRAPHIC] [TIFF OMITTED] T9952.204
    
    [GRAPHIC] [TIFF OMITTED] T9952.205
    
    [GRAPHIC] [TIFF OMITTED] T9952.206
    
    [GRAPHIC] [TIFF OMITTED] T9952.207
    
                                    

</pre></body></html>
